Semiannual
Report to the
Congress
October 1, 2001 - March 31, 2002
                                    OCTOBER 1, 2001—MARCH 31, 2002




OFFICE OF INSPECTOR GENERAL

     U . S . D e p a r t m e n t o f Tr a n s p o r t a t i o n

   Semiannual
   Report to the
   Congress
                                                                                                                                 CONTENTS


FROM THE INSPECTOR GENERAL                             ..................................................2

M I S S I O N, O R G A N I Z AT I O N, A N D C O N TA C T S                ....................................4

WORK PLANNED AND IN PROGRESS                                 ..........................................6

ACTIVITIES       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

C H A RT S A N D TA B L E S


               OIG Fiscal Year 2002 Budget . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

               Summary of Performance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 52

               Completed OIG Reports. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 52

               Management Decisions Regarding OIG Recommendations. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 53

               OIG Reports Recommending Changes for Safety, Economy, or Efficiency . . . . . . . . . . . . . . . . . . 54

               OIG Reports with Recommendations That Funds Be Put to Better Use . . . . . . . . . . . . . . . . . . . . . 54

               OIG Reports with Recommendations That Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 55

               Status of Unresolved Recommendations Over 6 Months Old . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 55

               Office of Inspector General Published Reports. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 57

               Office of Inspector General Congressional Testimonies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 63

               Application of Audit Resources by Operating Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 65

               Profile of Pending Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 66

               Investigative Resources by Priority Area. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 66

               Investigative Resources by Operating Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 66

               Judicial and Administrative Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 67


DOT OIG AWARDS              . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 68
ACRONYMS        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 77
                                         FROM THE INSPECTOR GENERAL


    N     ever before has the Department confronted as many formidable challenges on multiple fronts as it has
          over the last 6 months. While transportation security issues have been paramount, the Department has
    also had to address a host of other programmatic and budgetary issues.

    We, too, have been profoundly affected and have had to adjust our priorities to reflect the post-September 11
    world and remain responsive to the Secretary and Congress. We delivered 14 testimonies before Congress and
    issued 23 audit reports with more than $1.1 billion in financial recommendations. Our investigative work
    resulted in almost $13.5 million in fines and recoveries and 90 convictions.

    Some highlights during this reporting period follow:

    • Security. The task of building the Transportation Security Administration (TSA) from scratch is one never
      before undertaken on a scale of such magnitude. Since September 11, we have testified seven times
      regarding this undertaking, advising Congress that TSA’s overriding goal must be to provide tight, effective
      security in a manner that minimizes waste and ensures taxpayer dollars are well spent. There are many
      opportunities to build in cost efficiencies, and it is important for TSA to address them during its formative
      stages before many issues are set in stone.

      We informed Congress that the costs to implement the Aviation and Transportation Security Act and the
      requirements to hire and train a large federalized workforce of screeners will be enormous, sharply
      exceeding prior estimates. Significant cost drivers are the mid-November deadline for deployment of a
      qualified Federal workforce and the December 31st date for screening all checked baggage for explosives.

      TSA estimates that, in addition to the $2.4 billion already appropriated, it will need about $4.4 billion in
      supplemental funding for FY 2002. The estimated size of TSA’s workforce started at 30,000 and now could
      approach 70,000. We identified a number of cost-saving opportunities, which DOT is considering.

      At the President’s direction, we performed undercover audits to test airport security operations. We also
      participated in law enforcement sweeps resulting in approximately 250 arrests at 8 airports, where our
      special agents focused on finding employees who use illegal means to gain employment and security badges,
      which allow access to secure areas of the airport and airplanes.

    • NAFTA and Truck Safety. Congress directed us to determine whether the Department has an adequate
      safety and inspection regimen in place for opening the southern border to Mexican commercial motor
      carriers. We have made recommendations to the Department, and it is taking action.

      Fraud in the testing and licensing of commercial drivers has been identified in an increasing number of
      states. Investigations by our special agents with other law enforcement officials have resulted in 38 guilty
      pleas and 35 sentencings in a variety of commercial driver’s license scams in 12 states.

    • Financial Management. We issued our audit of DOT’s FY 2001 consolidated financial statements, in
      which the Department earned a "clean" audit opinion. With an FY 2002 budget of $64 billion, it is
      extremely important that DOT properly manage its resources and maintain adequate fiscal controls. To
      maintain a clean audit opinion, DOT must implement a state-of-the-art financial management and
      accounting system. We found deficiencies with DOT’s new financial management system, Delphi, which
      warranted immediate attention. DOT is working hard to correct them.




2      Semiannual Report to Congress
• Coast Guard. The Coast Guard is adjusting its missions in the wake of 9–11, while embarking on the most
  expensive acquisition in its history—Deepwater, upgrading the National Distress System (NDS) for
  mariners, and closing serious weaknesses in the Search and Rescue Program. At a cost of more than $10
  billion, the Deepwater project involves replacing or modernizing all Coast Guard planes and ships critical
  to missions 50 miles or more offshore. Given its acquisition approach, Coast Guard will not know what
  assets will be modernized or replaced until after a contractor is selected. NDS’s deficiencies include more
  than 88 communication gaps covering 21,500 square nautical miles where mariners’ calls for help cannot
  be heard.

• Passenger Rail. We testified before Congress and issued an assessment which concluded that Amtrak will
  not make its operating self-sufficiency deadline and has run out of sustainable options. Congress will have
  to consider a stopgap measure if it does not reauthorize Amtrak this year. The underlying problem for any
  future intercity passenger rail system is access to capital. Stakeholders should share the funding for
  continued rail service, weighing the importance of service against national, regional, and state priorities.

• Stewardship Over Highway and Transit Projects. We identified major, unexpected funding problems
  in highway and transit programs and a compelling need for stronger Federal and state stewardship over
  taxpayer dollars. We issued audit reports on the nation’s largest and most expensive highway project—the
  Central Artery/Tunnel Project, in Boston, at more than $14 billion—and the nation’s most expensive
  transit project—the Tren Urbano Rail Transit Project in San Juan, PR, at more than $2 billion. We found
  the October 2001 Finance Plan for Central Artery had improved over prior plans, but $162 million in
  additional costs needed to be shown in the project’s cost estimate. With Tren Urbano, we recommended
  the Federal Transit Administration not approve the finance plan until cost estimates, schedules, and other
  problems are corrected.

  Addressing fraud is a top priority. We have seen marked increases in our fraud investigation caseload,
  including several of the largest cases in highway/transit program history. One involved the Scalamandre
  brothers, who used fictitious minority business enterprise contracts to defraud the Government for over $40
  million. Another resulted in a $30 million civil settlement from Inland Steel of Chicago and Contech
  Construction Products for substitution of substandard pipe on highway construction projects in Louisiana.

• TREAD Act. NHTSA is responsible for implementing the TREAD Act, designed to prevent future
  Firestone tire incidents. We issued an audit report in which we recommended that to be successful NHTSA
  must: (1) complete TREAD Act rules; (2) formalize a peer review process to ensure investigations are
  opened and prioritized in a consistent manner; and (3) ensure that the effort to develop a new defect
  information management system will be cost-effective. The Department is acting on our recommendations.

We very much appreciate the support and responsiveness of Secretary Mineta, Deputy Secretary Jackson, and
the Congress for our work.




Kenneth M. Mead
June 2002



                                                                  From the Inspector General                     3
      MISSION, ORGANIZATION, & CONTACTS

       The Office of Inspector General for the Department of Transportation (DOT) was
       created by Congress through the Inspector General Act of 1978 (Public Law
       95–452). The act sets several goals for OIG:

     • To conduct or supervise objective audits and investigations of DOT’s programs and
       operations;
     • To promote economy, effectiveness, and efficiency within DOT;
     • To prevent and detect fraud, waste, and abuse in the Department’s programs;
     • To review existing and proposed laws or regulations affecting the Department and
       make recommendations about them;
     • To keep the Secretary of Transportation and Congress fully informed about prob-
       lems in departmental programs and operations.

       OIG is divided into two major units and six support units. The major units are the
       Office of Assistant Inspector General for Auditing and the Office of Assistant
       Inspector General for Investigations. Each has headquarters staff and field staff. The
       support units are the Office of Legal Counsel; the Office of Legislative and External
       Affairs; the Office of Technical Resource Management; the Office of Human
       Resources; the Office of Financial, Administrative, and Information Management;
       and the Office of Quality Assurance Reviews/Internal Affairs.

        OIG Fiscal Year 2002 Budget

         Total: $59,662,000
                  $3,200,000        $2,735,000   $1,800,000 TASC*
               General Services       Travel
              Administration Rent


                      $2,810,000
                        Other




                   $10,299,000                                             $35,093,000
                    Benefits
                                                                           Personnel
                                                                           Compensation

                          $3,725,000
                          Advisory &
                     Assistance Contracts

             * The Transportation Administrative Service Center provides reimbursable
               services to DOT Operating Administrations.



4   Semiannual Report to Congress
                                                                                       TRANSPORTATION
                                                 Inspector General


                                               Deputy Inspector General


                                                                                                                      Legal Counsel
                                                                                                              Legislative & External Affairs
      Assistant IG For                                     Assistant IG For                                Technical Resource Management
       Investigations                                         Auditing                                             Human Resources
                                                                                                 Financial / Administrative / Information Management
                                                                                                     Quality Assurance Reviews / Internal Affairs




                                                               Deputy                               Deputy
                                              Deputy                          Deputy AIG for                          Program Director
       Deputy             Deputy                               AIG for                              AIG for
                                              AIG for                         Financial and                           for Transportation
       AIG for            AIG for                           Competition and                        National
                                            Maritime &                         Information                               Security and
    Investigations        Aviation                            Economic                          Transportation
                                          Highway Safety                       Technology                            Hazardous Materials
                                                               Analysis                         Infrastructure




                                                           Contacts
Inspector General                                                             Deputy Assistant Inspector General
Kenneth M. Mead . . . . . . . . . . . . . (202) 366–1959                      for Aviation
                                                                              David A. Dobbs . . . . . . . . . . . .(202) 366–0500
Deputy Inspector General
Todd J. Zinser . . . . . . . . . . . . . . . . (202) 366–6767                 Deputy Assistant Inspector General
                                                                              for Financial and Information Technology
Assistant Inspector General                                                   John L. Meche . . . . . . . . . . . . . .(202) 366–1496
for Auditing
Alexis M. Stefani . . . . . . . . . . . . . . (202) 366–1992                  Deputy Assistant Inspector General
                                                                              for National Transportation Infrastructure
Assistant Inspector General                                                   Theodore P. Alves . . . . . . . . . . .(202) 366–0687
for Investigations
Charles H. Lee, Jr. . . . . . . . . . . . . . (202) 366–1967                  Deputy Assistant Inspector General
                                                                              for Maritime and Highway Safety
Senior Counsel                                                                Thomas J. Howard . . . . . . . . . .(202) 366–5630
Roger P. Williams . . . . . . . . . . . . . (202) 366–8751
                                                                              Deputy Assistant Inspector General
Senior Counsel for                                                            for Competition and Economic Analysis
Legislative & External Affairs                                                Mark R. Dayton . . . . . . . . . . . .(202) 366–9970
Brian A. Dettelbach . . . . . . . . . . . (202) 366–2083
                                                                              Program Director
Public Affairs Officer                                                        for Transportation Security
David Barnes . . . . . . . . . . . . . . . . . (202) 366–6312                 and Hazardous Materials
                                                                              Robin Hunt . . . . . . . . . . . . . . . .(415) 744–0420



                        Hotline to report fraud, waste, and abuse: 1–800–424–9071
                                  OIG website: http://www.oig.dot.gov


                                                                          Mission, Organization, & Contacts                                            5
                     WORK PLANNED AND IN PROGRESS


                         The Office of Inspector General (OIG) receives requests from the
                         President, members and committees of Congress, and departmental
                         officials to conduct audits, reviews, and investigations and provide
                         testimony on departmental programs. In developing our work plan for
                         the next 6 months, our priorities are to (1) continue to follow through
                         on the President's directive to conduct undercover security audits at
                         airports nationwide; (2) respond to congressional requests on a wide
                         variety of subjects; and (3) provide information to assist key decision
                         makers in addressing the top management challenges at the
                         Department, including strengthening transportation security following
                         the events of September 11, promoting safety in all modes of
                         transportation, and ensuring effective oversight of Federal dollars used
                         in major Departmental acquisitions and large transportation
                         infrastructure projects.

                         OIG’s work plan currently includes the following projects:

                         Transportation Security

                         • Conduct undercover audits of security performance at airports
                           nationwide to detect lapses in security systems and ensure strict
                           compliance with security standards.

                         • Conduct a series of audits of the Transportation Security
                           Administration’s (TSA) strategies to deploy advanced security
                           technologies, including the budgeting, purchasing, and deploying of
                           technologies used in screening passengers, checked and carry-on
                           baggage, and cargo.

                         • Conduct a series of audits on TSA's policies, procedures, and practices
                           for hiring and training the airport screening workforce.

                         • Review TSA’s budget for fiscal years 2002 and 2003, including salaries,
                           staffing, equipment, contract support, administration, and overhead.

                         • Identify and categorize aviation security technologies available for
                           deployment now and those needing further research, engineering, and
                           development. Present recommendations on those technologies
                           offering the best promise for immediate deployment or development.




6   Semiannual Report to Congress
• Review and report on TSA’s progress in implementing provisions of
  the Aviation and Transportation Security Act, including those which
  deal with baggage screening, such as positive passenger bag match,
  criminal background checks of ground crews who have access to
  secure areas of the airport, and other provisions with no statutory
  deadlines.

• Evaluate the Federal Aviation Administration’s (FAA) repair stations
  for security controls of aircraft and repair facilities, and verify that
  foreign civil aviation authorities conducting inspections on FAA’s
  behalf ensure that aircraft are adequately safeguarded.

• Evaluate the Federal Air Marshal program in ensuring in-flight
  security of domestic and foreign air carrier flights.

Aviation Audits

• Review FAA’s progress in reducing runway incursions and operational
  errors.

              • Evaluate the development and deployment of the Local
                Area Augmentation System (LAAS), including program
                cost and schedule. LAAS augments the Department of
                Defense’s Global Positioning System for civil aviation
                and will provide airports with all-weather approach and
                landing capability.

              • Determine the effectiveness of FAA’s oversight of the
                National Airspace System Implementation Support
                contract.

              • Assess the proposed cost, milestones, and critical path
                issues for achieving the Operational Evolution Plan,
                FAA’s new blueprint for enhancing capacity over the
                next decade.

• Evaluate FAA’s plan and requirements for upgrading or replacing
  long-range radars.




                            Work Planned and in Progress                 7
                         • Evaluate FAA’s oversight of the Workers’ Compensation Program
                           within the air traffic line of business to ensure that workers’
                           compensation cases are properly managed to prevent unnecessary
                           costs.

                         Financial and Information Technology Audits

                         • Review the continued implementation of the Department of
                           Transportation’s (DOT) new Delphi financial management system to
                           determine compliance with the Federal Financial Management
                           Improvement Act and other regulations.

                                       • Review data quality, user privacy protection, and system
                                         vulnerabilities associated with DOT’s web-based
                                         services for e-government implementation.

                                       • Determine whether the FAA Air Traffic En-Route
                                         Center operations are adequately secured to ensure the
                                         integrity, confidentiality, and availability of critical
                                         systems used to direct high-altitude air traffic.

                                       • Perform the annual independent evaluation of DOT’s
                                         information security program as required by the
                                         Government Information Security Reform Act.

                         • Review DOT’s capital planning efforts for selecting and managing
                           information technology investments.

                         • Determine the validity of the Transportation Administrative Service
                           Center’s total amounts reported for fiscal year 2001, the accuracy of
                           revenue and cost balances as shown by service activity, and the
                           adequacy of internal controls.

                         • Determine whether the National Transportation Safety Board has
                           made progress implementing and improving internal controls over its
                           financial management practices.

                         National Transportation Infrastructure Audits

                         • Continue monitoring cost estimates, funding, and scheduling for the
                           top highway and transit projects. For 2002, total transportation


8   Semiannual Report to Congress
  funding was $32 billion for highways and $7 billion for transit.

• Review oversight of management and financial issues for the
  Woodrow Wilson Bridge Project in the Washington, DC,
  metropolitan area, the Springfield, VA, Interchange Construction
  Project, and the Central Artery/Tunnel Project in Boston, MA.

• Review the progress to date in deploying integrated Intelligent
  Transportation Systems technologies in the nation’s largest
  metropolitan areas. This will include reviewing progress in the
  development of national and related regional architectures and
  standards for communications.

• Review the Federal Transit Administration’s oversight of the
  management practices of grantee bus fleets to assess the benefits of
  standardizing bus purchases.

Maritime and Highway Safety Program Audits

              • Establish whether safety and inspection elements
                mandated by law are in place before the North
                American Free Trade Agreement’s cross-border
                trucking provisions are implemented.

              • Review Coast Guard’s small boat station search and
                rescue program to follow up on prior OIG audit
                findings regarding staffing, training, and equipment,
                and to determine whether the $14.5 million in
                additional FY 2002 funding is being used to expand the
                program’s level of effort as Congress intended.

             • Determine whether the Coast Guard's container
               inspection program adequately ensures the safety and
               security of hazardous material freight containers shipped
               through U.S. seaports.

• Review the Maritime Administration’s handling of the American
  Classic Voyages Co.’s Title XI loan guarantee and determine whether
  procedures for submitting, reviewing, approving, and monitoring
  selected loan guarantees comply with laws and regulations to protect
  the interests of the United States.


                           Work Planned and in Progress                9
                          • Assess the National Highway Traffic Safety Administration’s
                            management of the occupant protection program, including efforts to
                                      increase seat belt use, allocation of funds to partnerships
                                      and demonstration programs, and technical assistance
                                      provided to state and local governments.

                                        • Review the Department’s efforts to improve the safety
                                          of railroad/highway grade crossings and assess the
                                          progress toward achieving the Department's goals to
                                          reduce rail-highway crossing accidents and fatalities.

                          Competition and Economic Analysis

                          • Evaluate the Office of the Secretary's procedures to implement the
                            compensation payment provisions of the Air Transportation and
                            System Stabilization Act and the reasonableness of air carrier
                            compensation claims.

                          • Provide information to Congress and executive branch officials as they
                            deliberate the future of intercity rail, funding for Amtrak's operational
                            and capital needs, and development of high-speed corridors around
                            the country.

                          • Review the accuracy of the Federal Railroad Administration's safety
                            inspection reports and database and determine whether the database
                            information is used appropriately to calculate defect ratios.

                          • Continue to monitor air transportation and essential air services to
                            small communities.




10   Semiannual Report to Congress
                                                                                                 ACTIVITIES


                                            IG Testifies on Security Before                                  OCTOBER 11
                                            House Aviation Subcommittee

                                            The Inspector General testified before the House Transportation and
                                            Infrastructure Aviation Subcommittee regarding the deployment and
                                            use of advanced security equipment and technology. In the short term,
                                            the proficiency of aviation screeners needs to be improved, available
                                            advanced security equipment needs to be effectively deployed and
                                            utilized, and use of explosives detection equipment needs to be
                                            increased. Over the long term, advanced security equipment capable of
                                            screening all passengers, passenger carry-on and checked baggage,
                                            airline crews, and others with access to aircraft for all threat objects
                                            (knives, guns, explosives, etc.) must be developed and deployed.


                                            Coast Guard Great Lakes Icebreaker                               OCTOBER 17
                                            Capability Replacement Project

                                                                       At the request of the Senate Appropriations
                                                                       Committee, we conducted a review to determine
                                                                       whether the design specifications and requirements
                                                                       in the request for proposals (RFP) for Coast
                                                                       Guard’s Great Lakes Icebreaker Replacement
                                                                       Project would preclude full and fair competition.
                                                                       We concluded that the RFP, issued on December
                                                                       21, 2000, allowed for full and fair competition.
                                                                       Coast Guard’s acquisition procedures were
                                                                       consistent with Federal Acquisition Regulations,
                                                                       and the specifications and requirements in the RFP
                                                                       would allow broad participation by shipyards,
                                                                       including those not on the Great Lakes or without
                                                                       experience in icebreakers. We did not make
Coast Guard icebreaker Mackinaw, which is scheduled for replacement.   any recommendations.


                                            Importation of Freon Leads to Arrest                             OCTOBER 19


                                            Mahamad Almhchie, owner of American One Automotive & Oil Co.,
                                            Hayward, CA, was arrested for importing Freon gas in violation of
                                            Federal law governing the transport of hazardous materials and the




                                                                                                                       11
                                                                 Clean Air Act. Freon was once widely used as a refrigerant
                                                                 in air conditioning and cooling systems. Under 1990
                                                                 amendments to the Clean Air Act, it became a felony to
                                                                 knowingly produce and import Freon, a gas that depletes
                                                                 the Earth’s protective ozone layer. The 106 Freon
                                                                 cylinders, which originated in Mexico, were seized during
                                                                 a search following Almhchie’s arrest. Investigators have
                                                                 not yet determined how the tanks entered the U.S. OIG
                                                                 investigated this case with the U.S. Environmental
                                                                 Protection Agency’s (EPA) Criminal Investigations
                                                                 Division and the U.S. Customs Service.
Some of the 106 freon containers seized by OIG special agents.



                                             Subcontractor Pleads Guilty to Bribery                            OCTOBER 19
                                             in Public Corruption Case

                                             Alfred Lenoci, Jr., president of United Environmental Redevelopment,
                                             LLC, in Bridgeport, CT, agreed to pay $104,000 in restitution after
                                             pleading guilty in U.S. District Court in New Haven, CT, to charges of
                                             mail fraud and bribery as part of an ongoing investigation of public
                                             corruption in Bridgeport. Between October 1999 and June 2000,
                                             Lenoci, whose company was a subcontractor, received $104,000 in
                                             Federal Transit Administration grant funds through the city of
                                             Bridgeport. The payment was for removing and disposing of
                                             contaminated soil allegedly from the construction site of a municipal
                                             hockey arena and parking garage.

                                             Lenoci conspired with Fales Trucking, a subcontractor hired to truck
                                             contaminated soil from the site, to lie about the amount of soil removed,
                                             thereby inflating the bill to the City of Bridgeport. Approximately 1,860
                                             tons of soil from sites in Norwalk, CT, and New York City were added
                                             to the amount removed from the garage/arena site. Lenoci was
                                             responsible for creating the claim package, containing false documents
                                             and erroneous amounts, submitted to the city for payment. Fales
                                             Trucking also pleaded guilty in August 2001 for participation in the
                                             scheme, acknowledging creation of fictitious manifests, truck tickets,
                                             and dump receipts. The company’s sentencing is pending. OIG
                                             investigated the case with the FBI, the IRS’s Criminal Investigation
                                             Division, and the Defense Criminal Investigative Service.




12     Semiannual Report to Congress
          Amtrak’s FY 2003 Budget and the Future of Intercity Rail
With Amtrak approaching its congressionally
mandated December 2002 deadline for operating
self-sufficiency, we issued our annual assessment
on its financial performance and provided
testimony to aid Congress as it debates the
railroad’s future. In three testimonies—before the
Senate Commerce Committee on March 14 and
the Senate and the House Transportation
Appropriations Subcommittees, on March 7 and
February 27, respectively—the IG said Amtrak
could not meet its congressional mandate for         Washington Post, February 28, 2002
operating self-sufficiency.

Amtrak’s passenger revenues and ridership showed
marked growth, but growth in expenses more than
kept pace since its congressional mandate. For
every $1 Amtrak realized in additional revenue,
cash expenses increased by $1.05.

Echoing the findings of our fourth annual
assessment of Amtrak, released in January, the IG
testified that Amtrak’s operating loss was $1.1 billion in 2001—$129 million higher than the 2000 loss and
the largest in Amtrak’s history. Cash losses, which are the measure of Amtrak’s progress toward self-
sufficiency, were $585 million in 2001—$24 million more than those in 1998, the first year of Amtrak’s self-
sufficiency mandate. Given Amtrak’s losses, the Administration’s FY 2003 Amtrak budget request of $521
million is not sufficient to provide the needed capital for the railroad.

We reported that any system of passenger rail, despite its potential profitability, will require substantial and
continuing capital. The most critical issue, then, is not Amtrak’s ongoing need for operating assistance but
how much capital investment will be needed to sustain a system of intercity passenger rail. Capital needs will
require substantial external assistance even if Amtrak or a successor succeeded in operational self-sufficiency.

In the short term, we recommended that Congress provide capital funding for Amtrak’s security and life
safety improvements, require that the funds be earmarked for specific projects, and hold Amtrak accountable
for their use. As Congress continues its efforts to reauthorize intercity passenger rail service, we
recommended that strong oversight provisions should accompany any infusion of capital funding to Amtrak
or a successor.




                                                                                              Activities       13
                          Aircraft Mechanic Jailed for Falsifying                       OCTOBER 22
                          FAA Documents

                          Michael Sandic was sentenced in U.S. District Court in Phoenix, AZ, to
                          2 years in jail and permanent restriction from employment in the airline
                          and aircraft maintenance industries after pleading guilty to charges that
                          he falsified his aircraft mechanic certificate. Sandic was charged on
                          February 24, 2001, with presenting a falsified aircraft mechanic
                          certificate to four separate companies in Arizona. On August 9 he was
                          also charged with falsely stating to his employers, British Aerospace
                          Systems in Lancaster, CA, and Lockheed Martin in Springfield, MA, that
                          he had an airframe and power plant mechanic rating. Sandic was also
                          ordered to repay $4,646 for blank checks stolen from a former employer.


                          Owner Convicted of Manslaughter,                              OCTOBER 22
                          Mariner Sentenced in Ferry Boat Fatality

                          Joseph Mitlof, owner of Hudson Valley Waterways, in Valley Cottage,
                          NY, was convicted by a U.S. District Court jury in White Plains, of
                          manslaughter in a fatal ferry accident on the Hudson River on August
                          23, 1998, and falsely advertising on the web that his company operated
                          Coast Guard-certified vessels. In fact, Mitlof’s three-boat fleet failed to
                          obtain Coast Guard certification, required for any vessel carrying more
                          than six passengers. The indictment charged that the boat lacked
                          required authorization to operate on the Hudson River and was unfit to
                          carry passengers. Mitlof is scheduled for sentencing on May 7.

                          Daniel Sheehan, a licensed U.S. Merchant Marine Officer, was fined $3,000
                          by a U.S. District Court judge in White Plains, NY, for his role in the
                          accident. Sheehan was piloting a water taxi with 29 passengers on board,
                          from Nyack to Tarrytown, NY, when the boat capsized and one passenger
                          drowned. Both Sheehan and Mitlof were charged under a Federal law
                          that applies to owners and captains of vessels. OIG investigated this case
                          with the U.S. Coast Guard and the New York State Park Police.




14   Semiannual Report to Congress
Ft. Lauderdale Airport Worker Guilty of                           OCTOBER 23
Faking Security Badge

Heberth Hernandez, a former cabin service agent at the Ft. Lauderdale-
Hollywood International Airport, pleaded guilty in U.S. District Court in
Fort Lauderdale, FL, to charges that he falsified an application for a security
badge and used a Social Security number that did not belong to him. The
falsified badge gave Hernandez illegal access to secure areas of the airport.
He was sentenced January 3, 2002, to time served and ordered deported.


Planned Labor Distribution Reporting                              OCTOBER 30
for FAA’s Air Traffic Services

                     Our audit found the Federal Aviation
                     Administration (FAA) is making good progress
                     toward its September 30, 2002, target for
                     implementing a labor distribution system in its Air
                     Traffic Services line of business. An integral part of
                     a cost-accounting system, labor distribution is the
                     process of tying labor costs to activities and
                     projects by requiring personnel to itemize their
                     time by activity. However, we found significant
                     weaknesses in the system employees use to sign in
                     and out and to record controllers’ work time
                     when they are not directing air traffic. The Cru-X
                     software being used allows controllers to override
                     the computer’s internal clock and record any start
                     or stop time, regardless of actual arrival or
                     departure times. FAA concurred with the need to
                     improve sign-in and sign-out procedures, but did
not agree to our recommendation to change the Cru-X software
programs used to record the exact time employees work.


Flight School Owner Indicted for Lying                           NOVEMBER 1
About U.S. Citizenship

Egyptian citizen Ahmed Elashmouny, who resides in Lindenhurst, NY,
and owns Delta Aviation Flight Academy, a flight training school in




                                                           Activities        15
                          Farmingdale, NY, was indicted in U.S. District Court in Central Islip,
                          NY, on charges of lying about his citizenship on an FAA aircraft
                          registration and on an application renewal for an FAA airman’s
                          certificate. Elashmouny was arrested by OIG agents on October 23. A
                          superceding indictment was made on March 14, adding charges of false
                          representation as a certified flight instructor for instrument training,
                          insurance fraud, and illegal use of credit card account numbers and
                          authorization codes. No trial date has been set. OIG and the FBI
                          investigated this case, with assistance from the U.S. Immigration and
                          Naturalization Service (INS).


                          Aircraft Parts Manufacturer Guilty                          NOVEMBER 6
                          of Inspection Fraud

                          High Quality Machine Shop, an aircraft parts manufacturer in San
                          Antonio, TX, pleaded guilty in U.S. District Court in Raleigh, NC, to
                          falsely representing to the U.S. Coast Guard (USCG) Aircraft Repair and
                          Supply Center in Elizabeth City, NC, that it had inspected a bellcrank
                                        spacer sleeve—a critical part for USCG helicopters—when it
                                        had not. The company was fined $5,000, ordered to pay
                                        $1,476 in restitution, and has been proposed for debarment
                                        from Federal contracts.


                                      IG Testifies on Status of Aviation             NOVEMBER 14
                                      Security Since September 11

                                      The IG testified regarding the status of airline security
                                      since September 11 at a joint hearing of the Senate
                                      Committee on Governmental Affairs and the
                                      Subcommittee       on    Oversight    of   Government
                                      Management, Restructuring, and the District of
                                      Columbia. The IG said that FAA and the Department
                                      have taken steps to tighten security.

                                      The IG noted, however, there are still alarming security
                                      lapses and some systemic vulnerabilities that need to be
                                      closed. We recommended the Department take the
                                      following corrective actions: (1) ensure that air carriers
                                      maximize the use of bulk explosives detection machines for



16   Semiannual Report to Congress
screening passengers’ checked baggage; (2) issue the final rule on
certification of screening companies to improve the screening of
passengers, baggage, and cargo; (3) establish standards for measuring
security screener performance based on computer-assisted testing and
unannounced testing of screeners by FAA; (4) strengthen controls to
prevent access to secure areas of the airport by unauthorized individuals;
(5) conduct criminal history checks of all individuals, including current
employees, who have unrestricted access to secure areas of the airport;
and (6) strengthen controls in cargo security, particularly the process for
certifying indirect air carriers (freight forwarders) and assessing indirect
air carriers’ compliance with cargo security requirements.

Furthermore, the IG found that given the scope, complexity, and
dynamics of the security challenge, coupled with long-standing
problems with the aviation security program, fundamental changes are
needed to enhance the effectiveness of the aviation security system.
These changes include creating a single entity responsible for the
aviation security system and correcting existing weaknesses in the
system, such as inadequate training and performance standards for
screeners. This organization must also work toward 100-percent
screening of checked baggage and cargo.


Taxi Driver Fined $27,000 for Defrauding                      NOVEMBER 27
FTA Handicapped Rider Program

James Garcia, a Yellow Cab driver in Chicago, IL, was ordered by a U.S.
District Court judge in Chicago to pay $27,000 in restitution for taking
              part in a conspiracy to defraud the Chicago Transit
              Authority. Garcia teamed with a disabled person to
              purchase the individual’s subsidized taxi vouchers and
              then, without giving any rides, claimed the $10 subsidy
              for each voucher along with the $2 administrative
              handling fee. The disabled person later cooperated with
              OIG investigators. The Federal Transit Administration
              (FTA) subsidizes taxi rides for disabled individuals who
              are unable to use public transportation.




                                                         Activities       17
                          Highway Construction Company                                DECEMBER 4
                          Foreman Convicted

                          Christ Minerd, foreman of Hardrives Paving & Construction, Inc., of
                          Cleveland, OH, a Federal highway contractor, pleaded guilty in U.S.
                          District Court in Cleveland, to submitting fraudulent invoices to
                          Mahoning County, OH, for asphalt that was never produced or used.
                          Separately, Renee Smith, owner of Tone Crack Seal & Supply,
                          Youngstown, OH, was charged by a Federal grand jury for fraudulently
                          obtaining more than $515,000 on four highway paving contracts set
                          aside for minority businesses by misrepresenting her company as a
                          disadvantaged business enterprise.

                          As part of his guilty plea, Minerd admitted that he and Smith took part
                          in a conspiracy in which Tone Crack served as the minority front
                          company, through which Hardrives won contracts to do work.
                          Hardrives owner James R. Sabatine pleaded guilty to racketeering in
                          August. OIG investigated the case with the FBI and the Department of
                          Labor OIG. Sentencing has not yet been scheduled.


                          Irregularities in FAA Investigation                         DECEMBER 4
                          of Missouri Air Crash

                          At the request of Representative Roy Blunt, we reviewed an FAA
                          investigation relating to the December 1999 crash involving the former
                          director of aviation at College of the Ozarks, who was killed along with
                          five others while piloting a college aircraft. FAA was initially asked by
                          Representative Blunt to investigate allegations that FAA harassed the
                          pilot during the months prior to the crash. National Transportation
                          Safety Board investigations cited stress caused by FAA as a contributing
                          factor in the crash.

                          Our review found a number of irregularities with FAA’s internal
                          investigation, including (1) the FAA team leader’s alleged statement that
                          investigators had to protect the reputations of local FAA inspectors who
                          were being investigated; (2) FAA’s failure to include conflicting
                          statements of witnesses in its report; and (3) one investigator’s
                          dissenting report highlighting FAA deficiencies in the investigation.




18   Semiannual Report to Congress
Airline Worker Pleads Guilty to Illegally                      DECEMBER 4
Trying to Ship 300 Pounds of Fireworks

Clement (Sonny) Mateo Reyes, Jr., an airline customer service
representative, pleaded guilty to trying to ship more than 300 pounds
of fireworks falsely labeled as light bulbs and light fixtures. A
representative of a Hawaii-based air cargo company discovered the Class
1.3 G explosives after opening the shipment to verify its contents. Under
Federal regulations, this type of fireworks is prohibited from shipment
aboard passenger or cargo aircraft. They could be legally shipped by sea
or ground if properly declared and labeled. No sentencing date has
been scheduled.


Fuel Excise Tax Evasion                                        DECEMBER 5
Results in Jail Term

Gregory Federico, owner of Capital Fuels, Mountainside, NJ, was
sentenced by a U.S. District Court judge in Newark, NJ, to 6 years in
jail for his role in a scheme to evade motor fuel excise taxes. Capital
Fuels provided false invoices to strings of nonexistent (daisy chain)
operators to hide the tax liability of transactions involving bootleg fuel.
Federico also received payments from bootleg operators in return for
use of his company in the schemes. Federico pleaded guilty to criminal
conspiracy to commit tax evasion for the 1994 tax year.


FAA Operational and Supportability                             DECEMBER 7
Implementation (OASIS)

We estimated cost savings of nearly $500 million over a 7-year period if
FAA were to consolidate automated flight service stations now while a
new computer system known as "OASIS" is in the early stages of
deployment. The savings could be allocated to other agency missions that
have become more critical in light of the events of September 11. We
found that consolidating the 61 automated flight service stations is
possible without sacrificing safety or service; since: (1) users now have
access to on-line flight services; (2) FAA has already consolidated over 315
flight service stations into the current 61 without harming safety or
service; (3) FAA studies conclude that 61 sites are not necessary to meet




                                                         Activities       19
                          current and future demand for flight services; and (4) users do not object
                          to consolidation, provided that automated technologies, such as OASIS,
                          are in place to maintain existing levels of service. FAA’s automated flight
                          service stations provide general aviation pilots with information and
                          services, such as preflight and in-flight weather briefings, assistance in
                          flight planning, notices to aviators, and emergency assistance.


                          Florida DBE Fraud Conspirators                                DECEMBER 7
                          Fined, Imprisoned

                          Tarand Transport, Inc., of Land O’Lakes, Florida, one of four
                          defendants involved in disadvantaged business enterprise (DBE) fraud
                          on an Interstate construction project, was fined $60,000 by a U.S.
                          District Court judge, in Tampa, FL. Owners Randy W. and Tammy J.
                          Blankenship were sentenced to 28 months in prison and $12,500 in
                          fines each. Howard L. Glover, of Mulberry, FL, doing business as the
                          certified disadvantaged business enterprise H.J. Trucking, was sentenced
                          to 14 months in prison and fined $5,000. Glover acted as a front to
                          obtain a subcontract to haul material for the I–4 highway construction
                          project in Hillsborough County, FL, during 1996–1998. As a result of
                          the investigation, the Federal Highway Administration (FHWA) is
                          considering debarment of the defendants. OIG investigated this case
                          with the Florida Department of Transportation OIG and the Florida
                          Department of Law Enforcement.


                          Conrail Pays $3.5 Million to Settle                           DECEMBER 7
                          N.E. Corridor Track Use Dispute

                                      Conrail agreed to pay $3.5 million to Amtrak in a settlement
                                      agreement with the U.S. Attorney’s Office in Philadelphia,
                                      PA. The freight railroad admitted to underreporting track
                                      usage miles for its use of Amtrak’s Northeast Corridor track.
                                      Amtrak owns the track and leases it to freight carriers. In
                                      1986, Conrail and Amtrak entered into an agreement in
                                      which Conrail agreed to pay Amtrak on a per-car, per-mile
                                      basis for use of Amtrak’s Northeast Corridor track, which
                                      extends from Washington, DC, to Boston, MA. OIG
                                      investigated this case with the Amtrak OIG.




20   Semiannual Report to Congress
                                         Aviation Security
OIG has devoted considerable resources to aviation security over
the last 6 months. Our undercover audits of security procedures
continue at airports nationwide, as directed by President Bush last
November. We also continue to conduct sweeps of airports to
identify employees who illegally have security badges, which give
them access to secure areas of the airport (see page 42 for an
article on security badges).

In the period following September 11, we provided Congress with
information about our prior reviews of aviation security and
recommendations on how to improve security. The IG testified on seven occasions that the Department has
taken steps to tighten security, but there are still alarming security lapses and some systemic vulnerabilities
that need to be closed.

In our testimonies we recommended a number of corrective actions, including: ensuring that air carriers
maximize the use of bulk explosives detection machines for screening passengers’ checked baggage; issuing the
final rule on certification of screening companies to improve the screening of passengers, baggage, and cargo;
establishing standards for measuring security screener performance; strengthening controls to prevent access to
secure areas of the airport by unauthorized individuals; conducting criminal history checks of all individuals
who have unrestricted access to secure areas of the airport; and strengthening controls in cargo security.

When the Aviation and Transportation Security Act was signed into law on November 19, 2001, creating
the new Transportation Security Administration (TSA), we began work to help the new agency as it became
operational. The IG testified twice before Congress on the challenges and key issues facing TSA in
implementing the act, citing the significant efforts that lie ahead in installing explosives detection systems
to screen all checked baggage; hiring a workforce; and having sound budget and accounting operations to
provide Congress with accurate figures and to control costs.

The IG testified in February that TSA will need a supplemental appropriation to pay for the higher-than-
anticipated cost of heightened security. The request has been submitted to Congress. In that testimony, we
also proposed metrics to measure TSA’s progress toward meeting the deadlines of November 19, 2002, when
it must have enough staff to screen all passengers and baggage; and December 31, when it must deploy
enough explosives detection systems to screen all checked baggage

In addition, we have been reviewing proposed technologies to improve aviation security. In an audit initiated
January 4, we are (1) identifying and categorizing those aviation security technologies available for
deployment now and those needing further work and development and (2) identifying which technologies
offer the best promise for immediate deployment or development.

                                                                                                     continued




                                                                                             Activities       21
                                  Aviation Security (continued)
 Most recently, we initiated an audit of TSA’s screener security program in April. Specifically, we are
 evaluating (1) prescreening and hiring of the workforce, including screeners, screener supervisors, and law
 enforcement officers; (2) controls over screening service contracts; and (3) initial and on-the-job screener
 training programs.

 We also began a series of audits regarding the deployment of advanced security technologies since September 11,
 2001. The objective of these reviews is to evaluate TSA’s strategies for budgeting, purchasing, and deploying
 advanced security technologies used in screening passengers, checked and carry-on baggage, and cargo. Our initial
 audit will review TSA’s plans for meeting the December 31, 2002 deadline to screen all checked baggage using
 explosives detection systems or alternate screening methods; and (2) evaluate TSA’s strategies for purchasing and
 deploying the equipment necessary to meet the deadline.

 Finally, we are responding to congressional requests to review TSA’s efforts on positive passenger bag match, plans
 for implementing sections of the Transportation and Aviation Security Act that do not have legislative deadlines,
 and actions to establish budgets for FYs 2002 and 2003 and control costs.




                                     FAA Permanent Change of Station                                   DECEMBER 10
                                     Moves at Atlanta TRACON

                                     A local agreement between FAA and the National Air Traffic
                                     Controllers Association is in conflict with the national collective
                                     bargaining agreement and may cost the Government as much as $1
                                     million in permanent change-of-station expenses. The local agreement
                                     allowed 44 Air Traffic employees who were transferring to the new
                                     Atlanta Terminal Radar Approach Control (TRACON) eligibility for
                                     paid permanent change-of-station moves that, under the national
                                     agreement, would not have been permitted. Because of our concern
                                     that the local agreement may establish a precedent at other locations
                                     being consolidated—such as the Potomac and Northern California
                                     TRACONs—we recommended that Air Traffic Services ensure that
                                     similar agreements are not developed.




22   Semiannual Report to Congress
FAA Flight Service Stations                                   DECEMBER 11
Cost-Accounting Practices

Our audit found that the FAA’s cost-accounting practices for flight
service stations did not assign $71 million to the stations as required.
The improper assignments occurred because cost-accounting and
related automated systems were not designed to apportion a fair share
of total costs to each flight service station. Federal accounting standards
require that costs for services be accurately assigned to the responsible
organization. We recommended that FAA program its cost-accounting
system to distribute costs among each of its flight service stations and
improve data accuracy. FAA agreed to take corrective action.


FAA’s Oversight of Aircraft Maintenance                       DECEMBER 12


We found that FAA has placed limited emphasis on air carriers’
Continuing Analysis and Surveillance Systems (CASS). CASS is the
system air carriers use to monitor the effectiveness of their aircraft
maintenance and inspection programs. While FAA inspectors reviewed
air carriers’ ongoing aircraft maintenance, CASS reviews were either not
conducted or they were conducted in an ineffective manner, perpetuating
a system where FAA relies on its own inspections to ensure carriers
            maintain their aircraft in an airworthy condition. This system
            is ineffective because FAA does not have sufficient resources to
            physically inspect every aircraft. While it is clearly the
            responsibility of air carriers to ensure the day-to-day safe
            operation and maintenance of their aircraft, FAA must be
            more proactive in identifying deficiencies in air carriers’ CASS
            and ensuring those problems are corrected. FAA concurred
            with our recommendations for enhancing its CASS oversight
            of air carriers.




                                                         Activities       23
                          FAA’s Use of Credit Hours to                                     DECEMBER 14
                          Settle Grievances

                          We issued a memorandum to FAA’s Associate Administrator for Air
                          Traffic Services recommending that the managers discontinue the
                          practice of granting time off as a way to settle grievances and other
                          complaints. This practice is in violation of the 1998 collective bargaining
                          agreement between FAA and the National Air Traffic Controllers
                          Association because work was not performed to earn the credit hours.
                          We found that Air Traffic managers in three regions engaged in the
                          practice. For example, in September 2000, managers in one region gave
                          approximately 104 credit hours to each of 112 union members, a total
                          of 11,648 credit hours.


                          FAA Free Flight Phase 1 Technologies                             DECEMBER 14


                          We found that the Free Flight Program is comparatively well managed,
                          due in part to its limited nature and its “build a little, test a little, deploy
                          a little” approach. We also found that new Free Flight Phase 1 systems
                          have made modest improvements in capacity at some locations, and one
                          automated controller tool is proving to be far more difficult and costly
                          to develop than anticipated. Because important questions exist about
                          how to move forward with Free Flight and the Operational Evolution
                          Plan (FAA’s new blueprint for enhancing capacity over the next decade),
                          we recommended that the agency review Free Flight and the
                          Operational Evolution Plan to assess budgetary priorities and project
                          milestones, and determine whether project priorities or design need to
                          be changed in light of September 11. FAA should also review security
                          risks associated with the ultimate goal of Free Flight and determine how
                          those risks will be mitigated.


                          FAA Oversight of Subcontracted                                   DECEMBER 14
                          Tower Operations

                          At the request of Senator Richard Shelby, Ranking Member of the
                          Senate Appropriations Subcommittee on Transportation, we
                          evaluated the oversight of subcontract tower operations by FAA and
                          its primary contractor to ensure subcontracted towers are comparable




24   Semiannual Report to Congress
                                in safety to FAA and contract towers.
                                We found that subcontract towers are
                                held to the same standards and receive
                                the same level of oversight as other
                                contract and FAA-operated towers.
                                Nonetheless, since 17 of the 22
                                locations    have    operated   under
                                subcontracts for less than 1 year, we
                                noted it is too early to assess the
                                program’s potential long-term effects.
                                We encouraged FAA to continue to
                                closely      monitor       subcontract
                                tower operations.


Former Airport Employee Sentenced for                        DECEMBER 19
Making False Security Badge; 12 Others
Admit to Using False Documents to
Get Security Passes

Cedric Floyd Mitchell, of Miami, a former Miami International Airport
employee, was sentenced in U.S. District Court, in Miami, to 300 hours
of community service and 3 years’ probation for using his position at the
airport to make a false security identification badge. Mitchell pleaded
guilty in June 2001 to charges that he assisted in producing the fake badge
for another person. OIG investigated this case with the FBI, with
assistance from FAA and the Miami-Dade Aviation Department.

In a case initiated prior to September 11, 12 arrest warrants were issued
against non-U.S. citizens who attempted to obtain security badges at
Miami International Airport. All of the workers have pleaded guilty; 10
are being processed for deportation, one is awaiting an INS appeal, and
the other is a resident alien. The 12 undocumented foreign nationals
were charged with using false Social Security cards and/or INS
registration cards to obtain security passes necessary to gain admittance
to secure areas at the airport, including the airport tarmac ramp and
baggage areas. U.S. Customs Service officials detected the falsifications
when the defendants applied for badges to gain access to Customs
secure areas.




                                                        Activities       25
                          Sentencing in Long Island                                         JANUARY 4
                          Motor Fuel Tax Evasion Scheme

                          David Guido, former owner and operator of Omni Petroleum Trading
                          Corp., West Hurley, NY, was sentenced to 5 years’ probation by a U.S
                          District Court judge in Central Islip, NY, for his role in a motor fuel tax
                          evasion scheme. Guido is one of 15 defendants who pleaded guilty in
                          May 1994 to criminal charges for evading payment of more than $34
                          million in gasoline excise taxes over a 3-year period. The defendants
                          facilitated a series of sham gasoline transfers in order to conceal their tax
                          liability. Federal excise taxes provide revenue for the Highway Trust
                          Fund. Guido is the latest defendant to be sentenced as a result of
                          investigations conducted by the Long Island Motor Fuel Task Force.
                          Three defendants remain at large. The task force comprises the OIG,
                          Department of Justice, IRS, FBI, and New York State Department of
                          Taxation and Finance.


                          Counterfeit Aircraft Parts Dealer                                 JANUARY 9
                          Ordered Jailed for 56 Months

                          Bo Baker, president and owner of 3D Industries, Dallas, TX, was
                          sentenced to 56 months in prison and ordered to pay $198,268 in
                          restitution by a U.S. District Court judge in Dallas, for misrepresenting
                          counterfeit aircraft parts as approved parts. Baker told the FAA that
                          inner combustion shells for Lear Jets were shipped directly to 3D by the
                          authorized manufacturer, General Electric Engine Services, when in
                          fact, they were fakes. Failure of a combustion shell could result in
                          crumbling shell pieces falling into the turbine, which could cause engine
                          failure. Baker pleaded guilty in August 1999. While she was waiting for
                          a report date to prison, she was arrested again on January 17 in another
                          scheme (see page 20). A second defendant, Richard M. Teubner is
                          scheduled for sentencing on April 19, 2002. OIG investigated this case
                          with the FBI. FAA’s Dallas Flight Standards District Office assisted in
                          the investigation.




26   Semiannual Report to Congress
                        DOT Consolidated Financial Statements
In FY 2001, with an operating budget totaling $62 billion, the
Department made significant progress to overcome major obstacles in
its financial information and reporting systems to earn its “clean” audit
opinion. Improvements in FAA’s property-accounting system were the
major step in achieving the improved rating. The Department received
a qualified opinion on its FY 2000 statements, primarily due to
weaknesses in accounting over FAA property and equipment. This was
the second time in the past 3 years that OIG was able to issue a clean
opinion on the Department’s financial statements.

We also gave FAA and the Highway Trust Fund (HTF) unqualified,
or “clean,” audit opinions on their FY 2001 statements. Our annual
audits of the consolidated financial statements for the Department,
FAA, and HTF were issued on February 26 and 27, showing how the
three entities spend and account for their funds.

Our audit also revealed a dramatic drop in FY 2001 revenues to the HTF and the Airport and Airway Trust
Fund as a result of high gasoline prices, a sluggish economy, and the September 11 attacks. The health of the
HTF has a direct impact on future projects, so DOT and the states will need to make significant adjustments
to planned projects for FY 2003 unless legislative action is taken. In addition, there are similar repercussions
affecting the Airport and Airway Trust Fund, with the result that FAA will require much larger contributions
from the General Fund than in past years.

For DOT, FAA, and the HTF, we identified several issues involving internal control weaknesses and
compliance with laws and regulations. While important, the issues did not affect our audit opinion.

The Department’s audit also included the results of a study of the actuarial model the U.S. Coast Guard uses
to estimate its liabilities for pay and medical benefits to retired employees. The Hay Group, which conducted
the study for us, concluded the methodology used to calculate the liabilities and annual actuarial activity was
reasonable and reliable.

Finally, the Saint Lawrence Seaway Development Corporation’s financial statements for FY 2001 also
received a “clean” opinion. We reviewed the audit work performed by Daniel Eke and Associates, P.C., of
Silver Spring, MD, and determined it complied with applicable standards.

Our annual audits of the consolidated financial statements are required by the Chief Financial Officers Act
of 1990. The audits include reviews of consolidated balance sheets, statements of net cost, statements of
changes in net position, and combined statements of budgetary resources and statements of financing.
Starting with FY 2001, the Office of Management and Budget is requiring comparative financial statements
that cover 2 years.




                                                                                              Activities       27
                          Status Assessment of FAA’s                                     JANUARY 10
                          Cost-Accounting System

                          As required by the Wendell H. Ford Aviation Investment and Reform
                          Act for the 21st Century, we reported to Congress on our second annual
                          assessment of the status of FAA’s cost-accounting system. While FAA
                          continues to progress in developing an effective cost-accounting system,
                          we recommended that the agency (1) revise the date for fully functional
                          cost-accounting and labor distribution systems to allow for their
                          integration with "Delphi," the Department’s new financial management
                          system; (2) establish financial and performance measures, using
                          benchmarks to determine progress and performing analyses to highlight
                          areas for increased efficiency and cost savings; (3) modify the cost-
                          accounting system to distribute headquarters administrative overhead
                          costs using a total cost base; and (4) prepare a comprehensive handbook
                          of its cost-accounting procedures and internal controls. FAA agreed
                          with our recommendations.


                          Departmental Oversight for                                     JANUARY 10
                          Transportation of Nuclear Waste

                          We found DOT must take steps to be fully prepared as the Department
                          of Energy (DOE) ramps up its program for transferring nuclear waste
                          from temporary to permanent storage. We recommended that DOT (1)
                          designate a focal point to timely and effectively address budget,
                          resource, regulatory, coordination, infrastructure, routing,
                          environmental, and safety issues that may arise with increased shipments
                          of nuclear waste, and (2) establish and maintain senior-level
                          coordination with DOE regarding transportation of nuclear waste.
                          DOT agreed with the recommendations.


                          Trucking Company and Owner                                     JANUARY 14
                          Convicted of Illegal Dumping

                          Emi-Sar Trucking & Equipment, Inc., of Pahokee, FL, and its owner
                          Emilio A. Perez were convicted by a jury in U.S. District Court in West
                          Palm Beach, FL, on three felony counts of illegally discharging wastes into
                          17 acres of protected wetlands in violation of the Clean Water Act and




28   Semiannual Report to Congress
                         causing damage to land belonging to the Army Corps of Engineers next
                         to Lake Okeechobee. Some of the waste was hazardous material. OIG
                         investigated the case with EPA’s Criminal Investigations Division, the
                         U.S. Army Corps of Engineers, and the Palm Beach Sheriff’s Office.


                         FAA Repair Station and                                       JANUARY 16
                         Its Manager Fined $250,000

                         Ozone Industries, Inc., an FAA-certificated overhaul and repair station
                         in East Lyme, CT, and Richard Critelli, its former station manager, were
                         fined by a U.S. District Court judge in New Haven, CT, for failing to
                         perform required checks on aircraft landing gear. Ozone was ordered to
                         pay approximately $150,000 in fines and Critelli $100,000 in fines.
                         Ozone and Critelli pleaded guilty in October 2001 that between 1995
                         and 1999 they failed to perform required compression checks on the
                         strut portion of commuter aircraft landing gear, and failed to maintain
                         the proper paperwork and produce it for the FAA, although they
                         reported they had. In a related administrative proceeding before FAA,
                         Ozone was required to pay a $47,000 civil penalty.


                         Repair Station Owner Pleads Guilty to                        JANUARY 17
                         Making Illegal Repairs on Military Planes
Airplane landing gear.

                         John J. Dimattei, owner of Mohawk Aviation, Ft. Lauderdale, FL,
                         pleaded guilty in U.S. District Court in West Palm Beach, FL, to charges
                         of falsifying documents involving repairs to military aircraft. A
                         designated engineering representative overseen by FAA, Dimattei falsely
                         portrayed Mohawk as an FAA-certified repair station and completed
                         repairs to FMS 800 switching units on military aircraft. In fact, Mohawk
                         was not a certified repair station and was not authorized to do the
                         repairs. The switching units allow upgrades to the aircrafts’ flight
                         management system, including the global positioning satellite system
                         and its navigation capabilities. Sentencing has not been scheduled. OIG
                         investigated this case with DCIS.




                                                                               Activities      29
                          Convicted Aircraft Parts Distributor Arrested                 JANUARY 17
                          Again in $1 Million Counterfeit Scheme
                          Before Reporting to Prison

                          Bo Baker, president and owner of 3D Industries, Dallas, TX, was
                          arrested in Ft. Worth, TX, on charges of attempting to sell more than
                          $1 million in counterfeit aircraft parts to three Houston investors.
                          Baker had previously been sentenced to 56 months in prison on January
                          9, 2002, and ordered to pay $198,268 in restitution by a U.S. District
                          Court judge in Dallas for selling counterfeit aircraft parts. She was
                          waiting for a report date to prison when OIG learned she had engaged
                          in this latest scheme. Baker was subsequently arrested by OIG agents.


                          Former Avionics Technician Sentenced                          JANUARY 22
                          for Selling Fraudulent Parts

                          Former avionics technician Stephen M. Walker of Windsor, CA, was
                          sentenced by a U.S. District Court judge in Oakland, CA, for selling
                          aircraft parts with fraudulent Airworthiness Approval Tags to
                          unsuspecting customers over eBay, the web auction site. A search of
                          Walker’s residence found unapproved aircraft parts, the fraudulent tags,
                          and e-mail correspondence between Walker and the victims. The parts
                          were recovered before they were installed in a plane. Because he was a
                          first-time offender and cooperated in the case, Walker was sentenced to
                          1 month of home confinement, 2 years’ probation, and a $700 fine.
                          OIG investigated the case jointly with the FBI.


                          Project Management Oversight Reports                          JANUARY 23
                          on Status of Major Transit Capital Projects

                          This summary provides key status information, including outstanding
                          issues, for all major transit capital projects receiving FTA funding. It
                          includes baseline and current cost, schedule, and funding information
                          and describes outstanding procurement, technical, budget, and legal
                          issues that could affect each project. OIG prepared the summary
                          because, by providing a snapshot of the current status of each project, it
                          provides useful comparative information that the Secretary, Congress,
                          and senior FTA executives can use to monitor the progress of major




30   Semiannual Report to Congress
projects. We recommended that FTA prepare this summary monthly to
help busy executives routinely review key information on all projects and
quickly focus on those requiring their attention or action.


IG Testifies Twice on                        JANUARY 23 AND FEBRUARY 5
Implementation of the Aviation
and Transportation Security Act

               The IG testified on two occasions regarding key issues
               facing the Transportation Security Administration in
               implementing the Aviation and Transportation Security
               Act—on January 23 before the House Transportation
               and Infrastructure Aviation Subcommittee and on
               February 5 before the Senate Committee on
               Commerce, Science, and Transportation. The IG said
               the agency is making progress but faces significant
               challenges in the following areas: installing explosives
               detection systems to screen all checked baggage; hiring
               and training a workforce; and meeting financing
               requirements of the act.


Airport Security Company Pleads                               JANUARY 23
Guilty to Security Violations

Garrison Protective Services, Inc., a New York corporation, pleaded
guilty in U.S. District Court in Miami, FL, to falsely certifying from
June 1, 1997 through July 31, 1998 that it had completed background
checks on employees working in security positions at Miami
International Airport. Garrison hired more than 100 airport security
screeners and cargo handlers without completing the FAA-required
verification of employment and criminal history checks. Sentencing has
not been scheduled. OIG investigated this case with the Miami-Dade
Aviation Department and was assisted by the FAA.




                                                       Activities      31
                                  Defendant Jailed for Operating                                  JANUARY 25
                                  a Chop Shop

                                  Keith Elden Helms, Seattle, WA, owner of Pac Auto Sales, was ordered by
                                  a U.S. District Court judge in Seattle to repay $286,372 and serve 9
                                  months in jail for operating a "chop shop," in which he purchased stolen
                                  motor vehicles and parts, switched the vehicles’ identification numbers, and
                                  shipped the stolen goods across state lines. Helms is the last of seven
                                  defendants charged with criminal violations as a result of a task force
                                  established to investigate and prosecute individuals involved in interstate
                                  transportation of stolen vehicles and stolen property, mail fraud, and other
                                  Federal and state violations. The task force consisted of agents from OIG,
                                  FBI, Coast Guard Investigative Service, INS, and Washington State Patrol.


                                  Former FAA Employee Pleads Guilty to                            JANUARY 28
                                  Submitting More Than $74,000 in
                                  Fake Purchase Orders

                                  David L. Abrass, a former FAA environmental technician, pleaded guilty
                                  in U.S. District Court, in Seattle, WA, to submitting false invoices to the
                                  FAA totaling more than $74,000, including using his Government credit
                                  card to buy almost $17,000 in software for his personal business,
                                  Mindpower Networks. Abrass resigned in December 1999, prior to
                                  initiation of the investigation.


                                  Coast Guard’s National Distress and                             FEBRUARY 4
                                  Response System Modernization Project

                                            The National Distress and Response System (NDS) is more
                                            than 30 years old and has many deficiencies, including more
                                            than 88 communication gaps totaling 21,490 square nautical
                                            miles along the U.S. coastline where the Coast Guard cannot
                                            hear mariners. Our audit found that plans to deploy a
                                            modernized NDS by 2006 which eliminates current deficiencies
                                            may be jeopardized because the Coast Guard revised system
                                            specifications to lower costs from an estimated $1 billion to
     Boston Sunday Globe




                                            $580 million. While capabilities under the revised system will
                                            exceed those of the existing NDS, Coast Guard eliminated or




32           Semiannual Report to Congress
reduced capabilities it originally considered essential. For example, the
revised system will still contain gaps in communication coverage and will
not pinpoint the location of a mariner in distress. These capabilities may
have to be added at some point in the future. We recommended that
Coast Guard develop a final NDS acquisition plan that contains estimates
for lost capabilities and obtain the Department’s approval before
obligating any funds for the procurement contract in the fourth quarter of
FY 2002.


Dulles Airport Passenger Fined $1,000                           FEBRUARY 5
for Concealing Knife

Thomas W. Brown, of Sterling, VA, was sentenced in U.S. District
Court in Alexandria, VA, to a $1,000 fine and 1 year’s probation for
attempting to board an aircraft with a concealed knife and violating
security procedures at Dulles International Airport. Brown was arrested
on October 13 by an OIG special agent who was monitoring security
checkpoints at Dulles in response to Secretary Mineta’s Zero-Tolerance
Policy for aviation security lapses. Brown pleaded guilty on November
14 to the criminal charges. During probation, he is not allowed to
possess any dangerous weapons.


Former FAA Employee Convicted of Lying                          FEBRUARY 6
on his Airman’s Medical Exams

David J. Kuraner, of Haymarket, VA, a former FAA electronics engineer,
was convicted in U.S. District Court, in Alexandria, VA, for falsely stating
on his airman’s medical examinations in 1996, 1998, and 2000 that he had
no health problems. In fact, he suffered from a problem that would have
disqualified him from flying. Prior to the investigation, the FAA
administratively removed Kuraner from his position in September 2000
because he failed to report for work.




                                                         Activities       33
                          Contractor Guilty of Making False                             FEBRUARY 6
                          Statements on Payrolls for Federal
                          Highway Projects

                          Steve Salke, owner and president of Aztec Landscape Engineering, in
                          Woodland Hills, CA, pleaded guilty in U.S. District Court, in Los
                          Angeles, CA, to making false statements on certified payrolls for
                          federally funded highway projects, in violation of the Davis-Bacon Act.
                          Salke, who was awarded Federal highway landscaping contracts in
                          California worth more than $2 million, was required under the act to
                          pay his employees the prevailing wage, as determined by the
                          Department of Labor. Salke paid his employees the correct amount by
                          check, but then demanded they return two-thirds of their wages to him.
                          Salke signed and sent certified payrolls to the State of California DOT
                          certifying that he paid his employees at the prevailing rate. OIG
                          investigated this case with the Department of Labor OIG and the FBI.


                          Student Pilot Sentenced for Flying                            FEBRUARY 6
                          Without ATC Clearance

                          Gary James Gottfried, a former student pilot, was sentenced by a U.S.
                          District Court judge in Billings, MT, for creating a safety hazard when
                          he piloted his unregistered Cessna into Class C airspace over Billings
                          Logan International Airport in Montana without clearance from the air
                          traffic control tower. Class C airspace is controlled airspace around an
                          airport that requires use of a specific transponder and two-way
                          communication with the control tower. Gottfried, who took off from
                          Chester, MT, was flying with an expired student pilot’s certificate.
                          Gottfried was given pretrial diversion, which defers his prosecution for a
                          year. During this period, he cannot pilot an aircraft and must enter a
                          drug and alcohol program, since he was in possession of illegal drugs
                          when arrested. OIG investigated this case with FAA’s assistance.


                          FHWA Contractor Pleads Guilty to                              FEBRUARY 8
                          Bribery of State Inspector

                          Abotorob Rafi, president of Merit Contractors, Fairfax, VA, pleaded
                          guilty to charges of attempting to bribe a state inspector on a federally




34   Semiannual Report to Congress
funded road improvement project and was sentenced by a U.S. District
Court judge to a year in jail and a $3,000 fine. Rafi was to pay the
inspector $1,850 in exchange for approving $19,194 worth of work that
had not been performed, in connection with the road work under a
Virginia Department of Transportation contract.


Coast Guard Employee Pleads Guilty                             FEBRUARY 8
to Embezzlement Charge

Yolanda Davis, a civilian clerk employed by the U.S. Coast Guard, pleaded
guilty to one count of embezzlement in U.S. District Court in Manhattan,
NY. Davis admitted to stealing at least $70,000 in fees paid to the Coast
Guard for merchant mariner licenses. Davis, while working at the Coast
Guard’s Regional Examination Center, repeatedly kept fees tendered to
her in cash by license applicants, rather than turning the payments over to
the office’s cashier. Davis has been suspended from her job pending
further action by the Coast Guard. She will be sentenced in June. This was
a joint investigation by OIG and the U.S. Coast Guard.


Airman Convicted of Obstruction                               FEBRUARY 11
of Accident Investigation

Terry Hoard was convicted in U.S. District Court, Portland, OR, for
obstructing Federal proceedings and lying to the FAA, in connection
with an FAA investigation of an aircraft accident at Portland
International Airport. Hoard, who was the pilot-in-command of the
twin-engine jet involved in the accident, told FAA investigators that Sam
Schnall was acting as the second pilot for the aircraft. In fact there was
no second-in-command, as required. Hoard then asked Schnall to
confirm his story when questioned, even though Schnall was not on
board at the time of the accident. Hoard also lied to investigators when
he said the cause of the accident was due to an engine failure during the
take-off roll, when he knew that he had intentionally attempted to take
off with only one engine. Hoard was fined $1,000 and ordered to pay
$475 in restitution. He was also ordered to surrender his airman’s
certificate and cannot seek to renew it during the term of probation.
This case was investigated by OIG, with assistance from FAA.




                                                        Activities       35
                                           Airline Employee Pleads Guilty to                                    FEBRUARY 12
                                           Stealing American Eagle Aircraft Parts

                                                               Alvin Randolph, an American Eagle airline employee at the
                                                               Columbus, OH, airport pleaded guilty in U.S. District Court in
                                                               Columbus to violating the Suspected Unapproved Parts law and
                                                               Federal firearms charges. Randolph was arrested by special
                                                               agents of OIG and the Bureau of Alcohol, Tobacco, and
                                                               Firearms after selling numerous stolen aircraft parts to an
                                                               undercover agent in exchange for cash and machine guns.
                                                               Randolph claimed to an undercover agent that he could obtain
                                                               a variety of stolen aircraft parts along with documents falsely
                                                               certifying the parts met the highest quality standards. False
                                                               statements regarding the origin of aircraft parts are a
                                                               longstanding problem in the aviation industry and a significant
                                                               threat to aviation safety. One of the items sold was a
One of the stolen aircraft parts seized by OIG special agents.
                                                               cockpit/cargo key stolen by Randolph, which reportedly would
                                                      work on all American Airlines aircraft, posing a significant risk to
                                                      aviation security. No sentencing date has been set.


                                           Hiawatha Corridor Light Rail                                         FEBRUARY 12
                                           Transit Project

                                           We released our audit of the status, cost, and completion schedule of the
                                           Hiawatha Corridor Light Rail Transit Project in Minneapolis, MN. We
                                           found that the project, which was about 30 percent complete, was on
                                           schedule and within budget and had not encountered any significant
                                           construction problems. We also identified several issues that could affect
                                           the project. Responding to a draft of our report, FTA and the
                                           Metropolitan Council of Minneapolis-St. Paul, the Federal grantee,
                                           agreed to:

                                           • Adopt a cash flow management plan to ensure funds would be
                                             available to cover costs;
                                           • Establish a task force to closely monitor project schedules; and
                                           • Closely monitor factors affecting operations and maintenance
                                             activities and develop a plan to fully fund reserves.




    36    Semiannual Report to Congress
                                Implementing the TREAD Act
In the wake of 103 deaths and over 400 injuries associated with tread separations on Firestone tires,
Congress passed the TREAD Act. Among its provisions, the act established early warning reporting
requirements for vehicle manufacturers so the
National Highway Traffic Safety Administration
(NHTSA) is aware of potential defects as soon as
possible. In hearings on the Firestone tire problem
before the act was passed in October 2000, Congress




                                                                                     Washington Post, January 10, 2002
questioned why NHTSA, Firestone, and Ford did not
act sooner to prevent the deaths and injuries
associated with the defective tires. Congress found
that NHTSA had insufficient data regarding the
problems with Firestone tires and did not use data it
already had to spot trends related to tire failures.

At the request of Senator John McCain, Ranking
Member of the Senate Committee on Commerce,
Science, and Transportation, we initiated an audit concerning NHTSA’s implementation of the act. In our
audit report, released in January 2002, we focused recommendations on ensuring timely completion of the
act’s requirements and improving NHTSA’s operations. More specifically, our recommendations advised
NHTSA to adhere to rulemaking deadlines, improve the process for identifying potential defects and opening
investigations, improve the quantity and quality of data on potential defects, and mitigate the risks associated
with developing a new defect information system. We reiterated our concerns and recommendations in
testimony before the House Committee on Energy and Commerce Subcommittee on February 28.

Last December, NHTSA submitted a required report to Congress on the status of implementation of the law.
Because only 3 of the 15 required rulemakings were complete, we recommended that NHTSA begin
reporting to Congress on a routine basis the milestone dates, budget estimates, and actions required to
complete the TREAD Act rules.

In our audit, we found instances where NHTSA did not open an investigation even though the
circumstances—number of complaints, period of time, alleged defect, and potential consequences—were
similar to those where investigations had been opened. We also found that only one or two NHTSA staff
decided whether or not to open an investigation, the basis for their decisions to not open investigations was
not readily apparent, and there was no documentation to support these decisions. As a result, we
recommended that NHTSA establish a peer review panel to ensure that data used to identify potential
defects are thoroughly analyzed and that investigations are opened and prioritized in a consistent manner.
NHTSA agreed with this recommendation and has already begun using a panel to determine whether
potential defects should be investigated.

The success of the TREAD Act ultimately depends on the quality and usefulness of the early warning data
and the capacity of the new system to process the high volume of data generated by early warning
requirements. Two factors currently hamper NHTSA’s ability to successfully implement a new defect
information system: (1) the quality of the data in the current defect database and (2) the risks associated with
NHTSA’s systems development efforts.                                                                   continued


                                                                                                                         Activities   37
                       Implementing the TREAD Act (continued)
 We found NHTSA’s contract with the Volpe National Transportation Systems Center to replace its current
 database with the new system by the fall 2002 was significantly at risk of not meeting quality, cost, and sched-
 ule goals. While NHTSA describes its new information system effort as one of acquiring commercial off-the-
 shelf software, the software will require modifications and involve systems development work.

 In response to our report, NHTSA has obtained the services of an independent entity to validate and verify
 the progress of the system development contractor, reduce development risk, and advise NHTSA of its find-
 ings. NHTSA also intends to review and edit the data in the defect database for accuracy and completeness
 before transferring it to the new information system. The key will be effective implementation and follow-
 through on both efforts.


                                    IG Testifies on DOT FY 2003 Budget                               FEBRUARY 13
                                    Before House Transportation
                                    Appropriations Subcommittee

                                    The IG testified before the House Appropriations Subcommittee on
                                    Transportation regarding the Department’s fiscal year 2003 budget.
                                    His testimony focused on responding to the events of September 11 and
                                    other departmental issues, including supporting the nation’s aviation
                                    system, deciding the future of intercity rail passenger service, improving
                                    motor carrier and vehicle safety, balancing Coast Guard’s missions and
                                    budget requirements, and improving the Department’s stewardship and
                                    accountability over Federal funds.


                                    Deputy Assistant IG Testifies on                                 FEBRUARY 13
                                    Pipeline Safety Program

                                                               The Deputy Assistant IG for Competition,
                                                               Economic, Rail, & Special Programs testified
                                                               before     the     House       Transportation
                                                               Subcommittee on Highways and Transit
                                                               regarding reauthorization of the pipeline safety
                                                               program. He addressed six issues where the
                                                               Research       and      Special      Programs
                                                               Administration, the agency with jurisdiction
                                                               over pipelines, faces additional work: (1)




38   Semiannual Report to Congress
                             unfulfilled, long-overdue congressional mandates on "integrity
                             management" of natural gas transmission pipelines and mapping of the
                             pipeline system; (2) the need to expand safety research and development
                             to detect certain pipeline defects before failures occur; (3) incomplete
                             improvements in pipeline accident data collection and analysis; (4)
                             pipeline inspectors who have not been trained in using internal
                             inspection devices and interpreting test results; (5) completing baseline
                             inspections by 2008 for all hazardous liquid and natural gas transmission
                             pipelines; and (6) need to develop actions plans for security roles among
                             agencies.


                             Three Arrested Under Racketeering                            FEBRUARY 13
                             Law in Household Moving Scheme

                                               The owners of five New York moving companies were
                                               arrested on charges of racketeering, grand larceny,
                                               criminal possession of stolen property, and other
                                               offenses after they allegedly repeatedly lured customers
                                               with "low ball" moving estimates, only to hold their
                                               household goods hostage unless an additional payment
                                               was made in cash. In scores of instances, these
                                               demands allegedly raised moving costs by several
                                               thousand dollars more than estimated. Those charged
                                               were Daniel Mantoza, his wife Ronit Mantoza, and
                                               Morad Alfar, of Queens, NY, who controlled On
                                               Budget Van Lines, Eilid Moving and Storage, and
Newsday, February 13, 2002




                                               other companies in Deer Park, NY. The investigation,
                                               known as "Operation Moving Day," employed New
                                               York’s Organized Crime Control Act against the
                                               owners of moving companies. This investigation was
                                               performed by a task force consisting of the OIG,
                                               NYPD, the Queens County District Attorney’s Office,
                                               and New York State DOT, with assistance from the
                                               Federal Motor Carrier Safety Administration
                                               (FMCSA).




                                                                                    Activities       39
                          Federal Highway Contractor and                                FEBRUARY 13
                          Its President Sentenced for Bribery

                          C&F Construction Company, Landover, MD, and its president,
                          Florentino Gregorio, were sentenced in U.S. District Court in
                          Washington, DC, after pleading guilty to bribery charges in multiple
                          schemes to defraud the District of Columbia under an FHWA-funded
                          highway paving contract. In a deal with C&F, a District of
                          Columbia public works inspector who oversaw C&F’s
                          work inflated costs more than $70,000 by falsifying paperwork
                          and accepting false paperwork from C&F for concrete that was never
                          laid. Another scheme involved C&F’s purchasing more than $10,000
                          worth of landscaping equipment for the inspector’s side business and
                          then receiving a kickback for the sum from the inflated job costs. The
                          judge ordered Gregorio to pay $41,000 in restitution and placed
                          the company on probation for 1 year. The companies are subject to
                          debarment. Gregorio and C&F pleaded guilty on December 7, 2001.
                          This investigation was conducted by OIG and the FBI, with assistance
                          from FHWA.


                          Supervisor Pleads Guilty to Forcing                           FEBRUARY 14
                          Subordinates to Lie for SIDA Badges

                          Wesley Rose, a former station manager for Miami Aircraft Support, Inc.,
                          an airline cargo loader based in Miami, FL, pleaded guilty to directing
                          employees to falsify their applications for Security Identification Display
                          Area (SIDA) badges at the Sacramento, CA, International Airport. At
                          Rose’s direction, employees indicated on their applications that the
                          required verification and background checks had been completed, even
                          though they had not. Rose also ordered the employees to provide the
                          falsified applications to FAA. Investigators found the company did not
                          verify employment history or conduct background investigations on
                          new employees before they applied for SIDA badges. This is an ongoing
                          case, which is being investigated by the OIG and TSA. No sentencing
                          date has been set.




40   Semiannual Report to Congress
IG Testifies Twice on Coast Guard            FEBRUARY 14 AND MARCH 19
Budget and Management Issues

In two congressional testimonies, the IG identified the need to balance
Coast Guard’s missions and budget needs in light of September 11 as
one of the top ten management challenges facing the Department.
Testifying before the Senate Appropriations Subcommittee on
Transportation on February 14 and the Senate Commerce
Subcommittee on Oceans, Atmosphere, and Fisheries on March 19, the
IG addressed Coast Guard’s efforts to balance enhanced port security
requirements with other missions, resolve serious weaknesses in the
Search and Rescue Program, overhaul the National Distress and
Response System for mariners, and launch the Deepwater Project, which
represents the largest acquisition in Coast Guard history.



Woman Pleads Guilty to Embezzling                          FEBRUARY 20
$138,250 from FAA

Sharon E. Alston, of Greensboro, NC, pleaded guilty in U.S. District
Court in Washington, DC, to embezzling more than $138,250 from
the FAA in a contract conspiracy-kickback scheme involving a former
FAA contracting officer. Alston’s company, Alston Enterprises, was
awarded a $138,250 contract for computer equipment based on false
documentation allegedly submitted by her co-conspirator, the former
FAA employee. False invoices authorized FAA’s payment to Alston’s
company, even though Alston never ordered or delivered the
equipment. After depositing the $138,250 check, Alston kicked back
$64,000 to the co-conspirator and spent $41,000 herself on a new Ford
Expedition. OIG is working with the FBI on this ongoing case.




                                                     Activities      41
                                    SIDA Badge Investigations
       Since September 11, OIG special agents have conducted joint investigations with INS, the Social
       Security Administration OIG, and several Federal, state, and local law enforcement agencies to
       identify airport employees who illegally obtained airport badges giving them access to secure areas of
       airports. These cases involved checking employees’ immigration records, verifying Social Security
       numbers, and reviewing criminal histories. At the end of the reporting period, 244 people had been
       charged at eight airports.
       Many of those charged and arrested
       allegedly gave false information to
                                            Salt Lake Tribune, December 12, 2001
       obtain employment that requires
       SIDA (Security Identification
       Display Area) badges, which allow
       access to secure areas of the airport.
       The charges generally included
       making false statements, using
       fraudulent Social Security num-
       bers, and using false alien registra-
       tion information. The workers
       were employed primarily by private
       companies that provide services at airports such as food services, aircraft fueling, baggage handling,
       cleaning and housekeeping inside the airport and on airplanes, and ground crew operations.
       Arrests Made October 1, 2001–March 31, 2002

     • Salt Lake City Airport, UT, 69 arrested on                                  • McCarran International Airport, Las Vegas,
       December 11; to date 19 have pleaded guilty,                                  NV, 27 indicted on February 6; to date, 19
       19 awaiting trial, 18 cases have been dis-                                    arrested and 4 have turned themselves in.
       missed, and 13 are at large.
                                                                                   • Logan International Airport, Boston, MA, 20
     • Portland International Airport, OR, 30 arrested                               charged on February 28, 19 arrested so far.
       on December 21; to date 9 charged, 22 deported.
                                                                                   • Hartsfield International Airport, Atlanta,
     • Sea-Tac Airport, Seattle, WA, 20 arrested on                                  GA, 5 arrested on February 20; all 5 remain
       January 18; all to be deported. On February 5,                                in custody.
       two additional employees who once worked at
       the airport were arrested; they have since been                             • Sacramento, CA, International Airport, 1
       deported to their native countries.                                           pleaded guilty on February 14 to directing
                                                                                     employees at the airport to falsify their SIDA
     • Charlotte-Douglas International Airport, NC,                                  badge applications. Another was charged on
       66 charged, 49 arrested on March 8.                                           March 8, and a third was ordered jailed on
                                                                                     March 5.




42     Semiannual Report to Congress
Three Operators of Household Moving
Companies Arrested in Extortion Scheme                      FEBRUARY 20


Three men who head four Brooklyn, NY, moving companies were
arrested on conspiracy charges based on allegations that they repeatedly
lured customers with artificially low moving estimates, only to threaten
to hold their household goods hostage until large additional payments
were made. Those charged were Avinoam Damti, Barry Minsky, and
Ofer Yosef, all residents of the New York metropolitan area, who
allegedly head On-Time Van Lines Moving and Storage,
Newstart Moving Inc., Starving Students Moving and Storage, and
Official Moving and Storage. The investigation also disclosed web sites
the defendants allegedly used to attract customers, including
flatpricemove.com,       goodmovers.com,         interstatemoving.com,
newstartmoving.com, and officialmoving.com. The investigation was
conducted by OIG and the FBI, with assistance from FMCSA.


Status Report on FAA’s Major                                FEBRUARY 22
Acquisition Projects

We issued a status report covering 20 major FAA projects, including
development of satellite navigation systems; replacing air traffic
controller displays at facilities that serve large hub airports; and
acquiring new technologies to prevent accidents on crowded runways.
Our work shows FAA has made progress with a number of acquisitions,
including Free Flight Phase 1, which has introduced new automated
controller tools.

However, cost and schedule problems persist and several programs bear
watching. Among these are the (1) Wide Area Augmentation System, a
new satellite navigation system; (2) Standard Terminal Automation
Replacement System; (3) Automatic Dependent Surveillance-Broadcast,
a key Free Flight technology that can help pilots land in bad weather and
help prevent runway accidents; and (4) Operational and Supportability
Implementation System, which provides weather and flight planning
information to general aviation pilots.




                                                       Activities      43
                          Supplier Attempting to Sell Aviation                         FEBRUARY 27
                          Parts Overseas Pleads Guilty to
                          Violating Arms Export Control Act

                          Gunter Kohlke, owner of Aircraft Components, Zurich, Switzerland,
                          pleaded guilty in U.S. District Court in New York, NY, to violating the
                          Arms Export Control Act when he attempted to sell military helicopter
                          shafts to a buyer in Iran. A middleman, Kohlke purchased substandard
                          military helicopter parts from Mike Turner, president of Air Technology,
                          in Naples, FL, and attempted to resell them, advertising the rebuilt parts
                          as factory-new. When the buyer wouldn’t accept them because they
                          failed to pass inspection, Kohlke complained to an OIG special agent
                          that Turner sold him substandard aviation parts. In the plea agreement,
                          he agreed not to contest the forfeiture of $107,000, the cost of the
                          parts. OIG was aided in this investigation by the U.S. Customs Service.


                          Two Indicted for Falsifying Aircraft                         FEBRUARY 28
                          Logbooks Before Selling Planes

                          Christian E. Esquino, San Diego, CA, and Lance Z. Ricotta, San
                          Marcos, CA, were arrested in Carlsbad, CA, on 38 counts of fraud for
                          falsifying aircraft logbooks so that buyers would not know the actual
                          operating hours and condition of the aircraft before purchase. Esquino
                          and Ricotta bought aircraft from the Mexican government, falsified the
                          aircraft logbooks to include engine maintenance and inspections, and
                          sold the aircraft in the U.S. Esquino and Ricotta were charged with
                          selling ten Cessna 310 aircraft, eight Cessna 210s, one Piper Cherokee,
                          and one Jet Commander. Trial is scheduled for June 18. OIG, the FBI,
                          and the Drug Enforcement Administration investigated the case, with
                          assistance from the FAA.


                          FAA’s Acquisition of Weather                                 FEBRUARY 28
                          and Radar Processor

                          We reviewed FAA’s progress with acquiring the Weather and Radar
                          Processor (WARP), which will give meteorologists, air traffic managers,
                          and air traffic controllers more accurate and reliable information to
                          lessen the effects of bad weather. We found that FAA has experienced




44   Semiannual Report to Congress
              significant problems managing the development and
              deployment of WARP on controller displays—mostly due
              to human factors and technical problems. We also found
              the program’s current cost baseline of $276.8 million is
              not realistic and the schedule is at risk. Since we issued
              our report, FAA has resolved many of the technical issues
              and installed WARP at the first site. FAA still needs to
              resolve controller concerns and clearly define the
              maintenance strategy.


Subcontractor Fined for Bribing                                 MARCH 4
Former Miami-Dade Aviation
Official to Keep Job

Marilyn J. Parker, owner of Engineering and Construction Services,
Miami, FL, was ordered by a U.S. District Court judge in Miami to
repay $145,000 to Miami-Dade County and was fined $500 for bribing
a Miami International Airport (MIA) official to continue her
subcontract. Parker was solicited by Ricardo Mendez, a former assistant
director with the Miami-Dade County Aviation Department, to provide
computer simulations for a construction project at MIA. Parker then
began paying bribes to Mendez and his wife, Mirta. Parker pleaded
guilty on August 3, 2001. The Mendezes are awaiting trial, tentatively
set for June 2002. OIG conducted the investigation jointly with the IRS
Criminal Investigation Division, Florida State Attorney’s Office, and
Miami-Dade Police Department.


Jury Finds Final Defendant Guilty                               MARCH 8
in Major Contract Fraud Case

In the largest contract fraud case in DOT history involving substandard
construction products, Richard E. Wall, St. Louis, MO, regional sales
manager for Inland Steel of Chicago, was convicted of mail fraud and
conspiracy by a Federal jury in Baton Rouge, LA. The conviction ended
a 5-year investigation into the substitution of substandard metal pipe on
state and Federal highway construction projects in Louisiana from 1992
to 1997. Wall was found guilty of concealing the unapproved pipe from
state and Federal inspectors and conspiring to falsely label the
substandard steel so it looked like approved steel. The pipe is used in



                                                       Activities      45
                                              culverts to carry runoff water under highways and roads. The lifespan of
                                              the unapproved pipe is estimated to be as brief as 20 years, compared
                                              with 70 years for the approved polymer-coated pipe. In January 2001,
                                              a $30 million civil settlement was reached with Ispat-Inland Inc.
                                              (formerly Inland Steel of Chicago) and Contech Construction Products
                                              of Middletown, OH. A sentencing date for Wall and the other four
                                              defendants has not been set. OIG conducted this investigation jointly
                                              with the FBI and the civil fraud investigation staff of the U.S. Attorney’s
                                              Office in Baton Rouge.


                                              MARAD Fleet Superintendent Pleads                                MARCH 11
                                              Guilty to Accepting a Gratuity

                                              Former Beaumont Ready Reserve Fleet Superintendent Frederick P.
                                              Splinter pleaded guilty to billing a Maritime Administration (MARAD)
                                              contract for $6,300 worth of electrical work done at his residence from
                                              an electrical contractor, Gold Crest Electric, Inc. The plea stemmed from
                                              a 20-count superseding indictment filed in November 2001 that charged
                                              Splinter with conspiracy, bribery, money laundering, false claims, and
                                              theft in connection with rigging bids and awarding MARAD contracts to
                                              favored contractors in exchange for cash bribes and construction work on
                                              his residence. As part of the plea agreement, Splinter will forfeit $50,000
                                              to avoid losing his residence. He also faces up to 2 years in prison and
                                              $250,000 in fines and restitution. MARAD suspended Splinter without
                                              pay until his sentencing, which is scheduled in the summer of 2002. OIG
                                              conducted the investigation jointly with DCIS and the FBI.


                                                                Report Issued on October 2001                  MARCH 11
                                                                Finance Plan for Central
                                                                Artery Project

                                                                We reviewed the October 2001 Finance Plan for the
                                                                Central Artery/Tunnel Project, in Boston, MA. We found
                                                                that presentations of cost, funding, schedule, cash flow,
                                                                and other factors have improved over previous finance
                                                                plans and generally meet FHWA’s guidance. Overall, we
                                                                found that, in the last 2 years, senior management has
                                                                improved the project’s financial management and
Overview of construction at the Central Artery/Tunnel Project
in Boston.




46     Semiannual Report to Congress
                                       reporting. However, we found several material items related to the costs,
                                       funding, and schedule that need to be adjusted:

                                       • cost presentations need to reflect $150 million in insurance costs and
                                         $12 million in rent for replacement space when the project
                                         headquarters is sold;
                                       • revenue sources, including excess income from an insurance trust
                                         fund, need to be identified and properly characterized as Federal or
                                         state funds; and
                                       • the plan needs to provide more information about project schedule risks.

                                       The project agreed to make those adjustments. Because the project
                                       indicated they intended to pay the rental costs out of contingency
                                       funding, we concluded that the estimated cost of the project should be
                                       $14.625 billion.


                                       Four Sentenced in Gray Market Vehicle Scheme                           MARCH 11


                                                Four of six defendants were sentenced in U.S. District Court in Miami,
                                                FL, for smuggling more than $1.5 million worth of luxury cars into the
                                                U.S. and selling them. The defendants imported the 45 vehicles under
                                                                               the "foreign national exception," which
                                                                               allows short-term visitors to bring their
                                                                               cars into the country without paying taxes
                                                                               on them. The defendants fraudulently
                                                                               titled and sold the vehicles without
                                                                               bringing them into compliance with DOT
                                                                               safety or EPA environmental standards or
                                                                               paying U.S. Customs duties. The
                                                                               sentences are as follows: Kai Stadler, Ft.
                                                                               Lauderdale, FL, 12 months in jail and
                                                                               restitution of $375,000; Individual
                                                                               Automobile Imports, Inc., Ft. Lauderdale,
                                                                               $60,000 fine and restitution of $75,000;
Luxury vehicles smuggled into the U.S. in the Florida gray market scheme.
                                                                               Thomas Kahnt, Ft. Lauderdale, 8 months
                                                in prison and restitution of $165,000; Alpe Eke of Miami, restitution of
                                                $90,000. The two remaining defendants will be sentenced in April. The
                                                investigation was conducted jointly by OIG, EPA’s Criminal
                                                Investigations Division, and the U.S. Customs Service, with technical
                                                assistance from NHTSA.



                                                                                                     Activities        47
                                                        IG Testifies on FAA’s                                           MARCH 13
                                                        FY 2003 Budget Request

                                                        The IG testified before the House Transportation Appropriations
                                                        Subcommittee regarding FAA’s FY 2003 budget request. His testimony
                                                        focused on:

                                                                            • Finance. FAA will require a substantially larger
     Aviation Week & Space Technology, March 13, 2002




                                                                              contribution from the General Fund than it has
                                                                              in the past 5 years, due largely to growth in its
                                                                              operating costs and reductions in Aviation Trust
                                                                              Fund revenues.
                                                                            • Safety. Despite progress, the number of runway
                                                                              incursions is still much too high, and operational
                                                                              errors made by controllers reached a record high
                                                                              of almost 1,200 incidents in FY 2001. Two
                                                                              audits of aviation safety inspection programs
                                                                              found FAA is not ensuring that airlines monitor
                                                                              their own maintenance programs, and has not
                                                                              finished implementing its new Air Transportation
                                                                              Oversight System.
                                                        • Airport Improvements. New security requirements could severely
                                                          stress plans for using airport funds to make capacity-related
                                                          improvements.
                                                        • Air Traffic Control Modernization. FAA needs to control costs and
                                                          ensure that multibillion-dollar modernization projects remain on
                                                          schedule and within budget.


                                                        Four Sentenced in Household
                                                        Moving Scam                                                     MARCH 18


                                                        Four men, working under the company name Ego Line Moving & Storage
                                                        were sentenced in U.S. District Court in San Jose, CA, for fraud by luring
                                                        customers with artificially low moving estimates and then holding the
                                                        household goods hostage until exorbitant additional payment was made.
                                                        Eilon Blankier, owner/manager of the company, was sentenced to 24
                                                        months in jail and ordered to pay $200,000 in restitution; David Gabay, of
                                                        Oakland, CA, to 4 months in prison; Yair Arviv, of Los Angeles, to 8
                                                        months detention in a corrections center; and Yosef Ben-Harosh, of San
                                                        Jose, to 36 months’ probation. OIG investigated the case with the FBI.



48   Semiannual Report to Congress
                 OIG Investigation of Argenbright Holdings, Ltd.
OIG reviews found ongoing problems at 14 airports with the
hiring practices of the large airport security firm Argenbright
Holdings, and on October 11, 2001, the U.S. Attorney’s Office
in Philadelphia went to court to revoke Argenbright’s
probation. A year earlier Argenbright had been placed on 3
years’ probation as a result of our investigations. In that case, a
U.S. District Court judge in Philadelphia also ordered the firm
to pay over $1.5 million in fines and restitution for lying to the
FAA about the training, testing, and background verification of
its security screeners.

On October 23, 2001, in response to the U.S. Attorney’s
motion, a U.S. District Court judge in Philadelphia increased
the firm’s probation from 3 to 5 years, ordered nationwide
fingerprint checks of all current and new Argenbright
employees, and doubled the number of court-ordered
compliance reports from two to four per year. The ruling
finalized Argenbright’s agreement to settle Justice Department allegations that the company violated a court
order by, among other things, continuing to hire airport screeners with criminal records.

Secretary Mineta decided that the Transportation Security Administration (TSA) would not do business
with Argenbright. TSA assumed responsibility for airport passenger screening in February this year.

OIG’s involvement with Argenbright dates back to January 1999, when we began an investigation of the
company after receiving allegations from FAA inspectors that the company falsified background
investigations of screeners at Philadelphia International Airport.



                                   Two Sentenced in Theft of Aviation                              MARCH 19
                                   Parts Blueprints

                                   Two men, one an owner of two aviation parts manufacturing companies
                                   and the other an employee of a third parts manufacturer, were sentenced
                                   by a U.S. District Court judge in Springfield, MO, for using stolen
                                   proprietary blueprints to manufacture aviation parts. Michael O.
                                   Goodrich, an employee of Textron-Lycoming, Williamsport, PA, stole
                                   parts and blueprints from his employer and sold them to Larry J.
                                   Sullivan, owner of Air Support International, Inc. and Air Sport, Inc., of
                                   Springfield. After submitting the blueprints to FAA to obtain parts




                                                                                           Activities      49
                                    manufacturing authority, Sullivan used them to manufacture parts at his
                                    companies. Sullivan was ordered to pay $275,000 in restitution, a
                                    $10,000 fine, and sentenced to 12 months in jail and Goodrich to
                                    $70,000 restitution. Each of the two companies was placed on 2 years’
                                    probation and fined $10,000.


                                    Report on Audit of the                                               MARCH 20
                                    Tren Urbano Rail Transit Project

                                    We released our audit of the Tren Urbano Rail Transit Project in San
                                    Juan, PR. We found that:

                                              • FTA has exercised stronger oversight of the project, including
                                                 withholding some Federal funds until the Puerto Rico Highway and
                                                                           Transportation       Authority     (HTA)
                                                                           implemented a recovery plan.
                                                                        • The scheduled completion date of
                                                                           September 2003 is unlikely to be achieved
                                                                           due to slow progress and interruptions in
                                                                           installing Tren Urbano’s track work.
                                                                        • The cost to complete Tren Urbano is
                                                                           likely to increase beyond HTA’s current
                                                                           estimate of $2.036 billion if the
                                                                           September 2003 completion date is
                                                                           not met.
                                                                        • The project’s cost increases and schedule
                                                                           delays have adversely affected HTA’s
                                                                           ability    to    fund   other    planned
                                                                           transportation improvements.
Station on the Tren Urbano line in San Juan, PR.
                                                                        • The long-term safety and operability of
                                                 the project will remain at risk until HTA corrects all
                                                 quality problems.

                                    We recommended that FTA neither amend the project’s full funding
                                    grant agreement nor accept or approve the updated finance plan until it
                                    is satisfied that HTA has (1) revised the project’s integrated master
                                    schedule to reflect attainable project milestones, (2) submitted a cost
                                    estimate consistent with a supportable project completion date, and (3)
                                    established and adhered to a timetable to resolve significant construction
                                    quality problems.



50   Semiannual Report to Congress
Trucking Company Dispatcher Confined                             MARCH 25
in Hours-of-Service Case

Gary Chamberlain, the chief dispatcher and a driver for Northern Gas
Transport, Inc. (NGT), of Lyndonville, VT, was sentenced to 2 years’
probation, 4 months’ home confinement, and fined $1,000 by a U.S.
District Court judge in Burlington, VT, for helping NGT conceal records
which disclosed that NGT drivers were driving in excess of hours
permitted. As a truck driver, Chamberlain falsified his own logs and as
dispatcher, forced drivers to drive beyond the permissible time limits. The
remaining defendants in this case—NGT and two other officials—will be
sentenced April 19, 2002. The company and the three defendants pleaded
guilty in U.S. District Court, in Rutland, on December 7, 2001, to
charges related to falsifying drivers’ logbooks. A hauler of hazardous
materials such as propane gas, NGT and Bruce Grant, the company owner
and president, pleaded guilty to conspiring to make false statements and
obstructing justice during a 1999 Federal compliance review. Safety
Manager Brad Grant pleaded guilty to obstruction of justice.




                                                        Activities       51
                                                                                                  CHARTS & TABLES
Summary of Performance
     10/1/01—3/31/02

                                                TRANSPORTATION SECURITY
                                                Reports issued                                                    87
                                                 TRANSPORTATION
                                                Recommendations      issued                  SECURITY            181
                                                Congressional testimonies                                         14
                                                Total financial recommendations                       $1,139,942,940
                                                   —That funds be better used                         $1,007,515,355
                                                   —That questioned costs                            $ 132,427,585
                                                Referrals for prosecution                                        294
                                                Cases accepted for prosecution                                   287
                                                Indictments                                                      265
                                                Fines, restitutions, and recoveries                  $     3,455,632
                                                Convictions                                                       90
                                                Debarments and suspensions                                         0
                                                Actions affecting DOT employees                                    5



Completed OIG Reports
   10/1/01—3/31/02
Estimated Amounts*, Dollars in Thousands
                                                TRANSPORTATION SECURITY
                                            Number of            Number of                 Questioned and Funds to Be Put
 Type of Review                              Reports          Recommendations             Unsupported Costs✝ to Better Use

 Internal Audits
     Program/functional                            14                    50                      $ 126,000                $ 938,500
     Chief Financial Officer
        financial statements                        6                      7                     $          0             $    69,015
 Other OIG Internal Reports                         3                      5                     $          0             $         0
 Total Internal Audits
     and Reports                                   23                    62                      $ 126,000                $1,007,515

 Grant Audits
   Audits of grantee under
       Single Audit Act                            64                   119                     $ 6,428                   $        0
 TOTAL                                             87                   181                     $ 132,428                 $1,007,515


* The dollars shown are the amounts reported to management. The actual amounts may change during final resolution.
✝ There were no recommendations with unsupported costs.
  Note: Department of Transportation programs and operations are primarily carried out by the Department’s personnel and
  recipients of Federal grants. As a result, audits by DOT’s Office of Inspector General fall into three categories: (1) inter-
  nal audits of departmental programs and operations; (2) internal reviews of departmental programs and operations; and
  (3) audits of grant recipients. The table shows OIG’s results in the three categories for the 6 months covered by this report.



52     Semiannual Report to Congress
Management Decisions Regarding OIG Recommendations
  10/1/01—3/31/02                             TRANSPORTATION SECURITY
Dollars in Thousands
                                              TRANSPORTATION SECURITY
                                      Number of   Number of     Questioned and
                                           TRANSPORTATION           SECURITYFunds to Be Put
    Description                        Reports Recommendations Unsupported Costs* to Better Use

    Unresolved as of
       October 1, 2001                     45                 145                    $     8,078          $    49,702
    Audits with findings
       during current period               75                 181                    $ 132,428            $1,007,515
    Total to Be Resolved                  120                 326                    $ 140,506            $1,057,217
    Management Decisions
       Prior period✝                       31                  97                    $ 3,781              $        0
       Current period✝                     42                 101                    $ 128,437            $ 513,015
    Total Resolved                         73                 198                    $ 132,218             $ 513,015
    Unresolved—
       Less than 6 mos. old                36                  80                    $     3,990          $ 494,500
       6 mos.–1 year                        9                  27                    $     3,911          $       0
       1 year–18 mos.                       4                  12                    $       386          $ 48,000
       18 mos.–2 years                      2                   3                    $         0          $       0
       Over 2 years old                     2                   6                    $         0          $   1,702
    Total Unresolved,                      53                 128                    $     8,287          $ 544,202
    as of March 31, 2002‡

*     Rounding of dollars may affect totals.
✝     Includes some reports and recommendations where costs were both allowed and disallowed.
‡     Considered unresolved if management decisions have not been made on all report recommendations.




                                                                                                        C h a r t s & Ta b l e s   53
O I G R e p o r t s R e c o m m e n d i n g C h a n g e s f o r S a f e t y, E c o n o m y, o r E f f i c i e n c y
     10/1/01—3/31/02                       TRANSPORTATION SECURITY
                                                          SECURITY
                                           TRANSPORTATION
                                           TRANSPORTATION SECURITY
                                           TRANSPORTATION SECURITY
                                                                Number of
 Reports                                                       Number of Reports                Recommendations
                                                                            TRANSPO
 A For which no management decision                                         RTATION
   was made by the start of the reporting period*                        42 SECURIT                   127
                                                                            Y
 B    Which were issued during the reporting period                      64                           149

 Total A+B                                                              106                           276

 C    For which a management decision was
      made during the reporting period                                   61✝                          163

 D For which no management decision was
    made by the end of the reporting period                              49✝                          113

* Revised from previous report to show corrected numbers.
✝ Includes reports where management both made and did not make a decision on recommendations.


OIG Reports with Recommendations That Funds Be Put to Better Use
   10/1/01—3/31/02                         TRANSPORTATION SECURITY
Dollars in Thousands


                                                           Number of             Number of
 Reports                                                    Reports           Recommendations          Dollar Value

 A For which no management decision was
   made by the start of the reporting period                      2                    2               $    49,702

 B Which were issued during the reporting period                  5                    7               $1,007,515

      Total A+B                                                   7                    9               $1,057,217

 C For which a management decision was made
   during the reporting period                                    4                    6               $ 513,015
      —that management agreed to                                  4                    6               $ 513,015
      —that management did not agreed to                          0                    0               $       0

 D For which no management decision was made
   by the end of the reporting period                             3                    3               $ 544,202




54    Semiannual Report to Congress
OIG Reports with Recommendations That Questioned Costs
  10/1/01—3/31/02                          TRANSPORTATION SECURITY
Dollars in Thousands
                                           TRANSPORTATION SECURITY
                                                     Number of   Number of
                                           TRANSPORTATION    SECURITY
Reports                                                                 Reports        Recommendations        Questioned Costs*

A For which no management decision was
  made by the start of the reporting period                                  10                 16                $    8,078

B Which were issued during the reporting period
                                                                             18                 25                $ 132,428

     Total A+B                                                               28                 41                $ 140,506

C For which a management decision was
  made during the reporting period                                           20                 29                $ 132,219
     —dollar value of disallowed costs                                       14 ✝               19 ‡              $ 160,613
     —dollar value of costs not disallowed                                   11 ✝               14 ‡              $ 1,655

D For which no management decision was
  made by the end of the reporting period                                    10                 12                $    8,287


*   There were no recommendations with unsupported costs.
✝   Includes reports where costs were both allowed and disallowed.
‡   Includes recommendations where costs were both allowed and disallowed.




Status of Unresolved Recommendations Over 6 Months Old
                                           TRANSPORTATION SECURITY

Cited in Semiannual Report for
                                           TRANSPORTATION
                                                      Date
                                                           SECURITY
Reporting Period—                                 Report No.           Issued                      Status

October 1, 1998–March 31, 1999
Deployment of Explosives-                       AV–1999–001           10–05–98       Passage of the Aviation and Transportation
Detection Systems                                                                    Security Act transfers responsibilities for
                                                                                     aviation security technology to the
                                                                                     Transportation Security Administration
                                                                                     (TSA). Working with FAA and TSA to
                                                                      resolve open issues satisfied by the act.
October 1, 1999–March 31, 2000
Airport Access Control                          AV–2000–017           11–18–99       Working with TSA to resolve open issues.




                                                                                                     C h a r t s & Ta b l e s      55
Status of Unresolved Recommendations Over 6 Months Old                                          continued



 Cited in Semiannual Report for                           Date
 Reporting Period—                        Report No.     Issued                 Status

 April 1, 2000–September 30, 2000
 Contract Towers: Observations on         AV–2000–079   04–12–00   Awaiting additional information from FAA.
    FAA’s Study of Expanding
    the Program
 Survey of the Federal Aviation           AV–2000–110   08–29–00   Working with FAA to resolve open issues.
    Administration’s Integrated Product
    Development System

 October 1, 2000–March 31, 2001
 Airport Noise Compatibility Program      AV–2001–012   12–14–00   Awaiting additional information from FAA.
 Castle Joint Powers Authority            QC–2001–022   02–14–01   Working with grantee to resolve issues.
 Gary Public Transportation Corporation   QC–2001–027   02–16–01   Working with grantee to resolve issues.
 Efforts to Develop and Deploy the        AV–2001–048   03–30–01   Working with FAA to resolve open issues.
    Standard Terminal Automation
    Replacement System

 April 1, 2001–September 30, 2001
 State of Louisiana                       QC–2001–049   04–02–01   Working with grantee to resolve issues.
 State of Indiana                         QC–2001–052   04–11–01   Working with grantee to resolve issues.
 Government of the United States Virgin   QC–2001–053   04–17–01   Working with grantee to resolve issues.
    Islands
 Commonwealth of Massachusetts            QC–2001–054   04–23–01   Working with grantee to resolve issues.
 Compensation Issues Concerning Air       AV–2001–064   06–15–01   Working with FAA to resolve open issues.
    Traffic Managers, Supervisors, and
    Specialists
 Despite Significant Management Focus,    AV–2001–066   06–26–01   Working with FAA to resolve open issues.
    Actions Are Needed to Reduce
    Runway Incursions
 Status Report on the Standard Terminal   AV–2001–067   07–03–01   Working with FAA to resolve open issues.
    Automation Replacement System
 Small Boat Station Search and            MH–2001–094   09–14–01   Working with USCG to resolve open issues.
    Rescue Program
 Further Delays in Implementing           AV–2001–102   09–26–01   Working with FAA to resolve open issues.
    Occupational Safety and Health
    Standards for Flight Attendants
    Are Likely




56   Semiannual Report to Congress
Office of Inspector General Published Reports
   10/1/01—3/31/02


Operating
Administration/          Report          Date
                                      TRANSPORTATION        Focus of Report/
                                                     SECURITY
Type of Report           Number              Issued             Title                 Recommendations

United States Coast Guard
Internal Audits: Program/Functional—2 reports
                       MH–2002–001      10–11–2001      Great Lakes Icebreaker      Requirements allow for full
                                                        Capability Replacement      and fair competition
                                                        Project
                       MH–2002–076         02–04–2002   Planning Process for the    High cost estimates prompt
                                                        National Distress and       contract performance reductions
                                                        Response System
                                                        Modernization Program
Internal Audits: Chief Financial Officer
Financial Statement—1 report
                       FI–2002–079         02–25–2002   Actuarial Estimates         Reasonable and reliable
                                                        for Retired Pay and         methodology used to calculate
                                                        Medical Benefits            liabilities and actuarial activity

Federal Aviation Administration
Internal Audits: Program/Functional—8 reports
                       FI–2002–016      10–30–2001      Air Traffic Services        Weaknesses in recording
                                                        Planned Labor               controllers’ work time
                                                        Distribution Reporting
                       AV–2002–064         12–07–2001   Automated Flight Service    Put $494,500,000 to
                                                        Stations: Significant       better use
                                                        Benefits Could Be
                                                        Realized by Consolidating
                                                        AFSS Sites in Conjunction
                                                        with Deployment
                                                        of OASIS
                       FI–2002–065         12–11–2001   Flight Service Stations     $71,000,000 questioned
                                                        Cost-Accounting Practices
                       AV–2002–066         12–12–2001   Oversight of Aircraft       FAA placed limited
                                                        Maintenance, Continuing     emphasis on oversight
                                                        Analysis and                of air carriers’ aircraft
                                                        Surveillance Systems        maintenance
                       AV–2002–067         12–14–2001   Free Flight Phase 1         Program well managed, but
                                                        Technologies: Progress      automation tools are costly and
                                                        to Date and Future          show limited improvements
                                                        Challenges



                                                                                         C h a r t s & Ta b l e s        57
Office of Inspector General Published Reports                                                           continued
     10/1/01—3/31/02


 Operating
 Administration/     Report              Date                                          Focus of Report/
 Type of Report      Number             Issued                   Title                Recommendations

 FAA— Internal Audits: Program/Functional continued
                AV–2002–068     12–14–2001      Subcontracting Issues of             Subcontracted towers need
                                                the Contract Tower Program           to be closely monitored
                                                                                     by FAA
                   FI–2002–072        01–10–2002       2001 Status Assessment        $55,000,000 questioned; put
                                                       of Cost-Accounting System     $368,000,000 to better use
                                                       and Practices
                   AV–2002–084        02–28–2002       Acquisition of the Weather    Credible cost and schedule
                                                       and Radar Processor           baselines needed to resolve human
                                                                                     factors and technical problems

 Internal Audits: Chief Financial Officer Financial Statement—2 reports
                   QC–2002–080         02–25–2002        Quality Control Review      Unqualified opinion on
                                                         of Property, Plant,         financial statements
                                                         and Equipment
                   FI–2002–082         02–27–2002        Financial Statements for    Unqualified opinion on FY 2001
                                                         Fiscal Years 2001 & 2000    financial statements; qualified
                                                                                     opinion on FY 2000 financial
                                                                                     statements; put $58,640,355 to
                                                                                     better use
 Grant Audits: Audits of Grantee Under Single Audit Act—14 reports
                  QC–2002–006       10–23–2001       City of Fort Lauderdale, FL     Improve grantee oversight
                  QC–2002–008       10–23–2001       Lander County, NV               Improve grantee oversight
                  QC–2002–010       10–24–2001       City of Delaware, OH            Improve grantee oversight
                  QC–2002–011       10–24–2001       Richland-Lexington Airport      Improve grantee oversight
                                                     District, SC
                  QC–2002–014       10–24–2001       State of Hawaii,                Improve grantee oversight
                                                     Department of Transportation,
                                                     Airports Division
                  QC–2002–020       10–30–2001       Carson City, NV                 Improve grantee oversight
                  QC–2002–031       10–31–2001       City of King, CA                Improve grantee oversight
                  QC–2002–033       11–01–2001       Miami-Dade County, FL           $292,500 questioned
                  QC–2002–035       11–01–2001       City of Lee's Summit, MO        Improve grantee oversight
                  QC–2002–053       11–06–2001       City of Colorado Springs, CO    Improve grantee oversight
                  QC–2002–054       11–06–2001       City of Kingman, KS             $13,482 questioned
                  QC–2002–058       11–07–2001       City of Watford City, ND        Improve grantee oversight




58   Semiannual Report to Congress
Office of Inspector General Published Reports                                                          continued
   10/1/01—3/31/02


Operating
Administration/      Report             Date
                                      TRANSPORTATION SECURITY                              Focus of Report/
Type of Report       Number           TRANSPORTATION
                                       Issued  Title SECURITY                             Recommendations

FAA—Grant Audits continued
              QC–2002–063            11–07–2001      Tunica County, MS                  Improve grantee oversight
              QC–2002–070            12–19–2001      Regional Airport Authority         Improve grantee oversight
                                                     of Louisville and Jefferson
                                                     County, Louisville, KY

Federal Highway Administration
Internal Audits: Program/Functional—1 report
                    IN–2002–086     03–11–2002       October 2001 Finance Plan          Put $76,000,000 to
                                                     for the Central Artery/            better use
                                                     Tunnel Project

Internal Audits: Chief Financial Officer Financial Statement—1 report
                   FI–2002–081        02–26–2002 Financial Statements for               Unqualified opinion on
                                                       Fiscal Years 2001 and 2000       financial statements

Grant Audits: Audits of Grantee Under Single Audit Act—18 reports
                  QC–2002–003 10–18–2001 Association of State                           Improve grantee oversight
                                                    Highway and Transportation
                                                    Officials, Washington, DC
                  QC–2002–009 10–23–2001 City of St. Charles, MO                        Improve grantee oversight
                  QC–2002–017 10–30–2001 State of Ohio                                  Improve grantee oversight
                  QC–2002–022 10–30–2001 State of Delaware                              Improve grantee oversight
                  QC–2002–023 10–30–2001 State of Mississippi                           Improve grantee oversight
                  QC–2002–024 10–31–2001 State of Rhode Island                          $1,256,225 questioned
                  QC–2002–025 10–31–2001 State of Oklahoma                              Improve grantee oversight
                  QC–2002–026 10–31–2001 State of Florida                               $2,621,531 questioned
                  QC–2002–029 10–31–2001 State of Illinois                              Improve grantee oversight
                  QC–2002–030 10–31–2001 State of Minnesota                             Improve grantee oversight
                  QC–2002–032 10–31–2001 State of Indiana                               $32,100 questioned
                  QC–2002–036 11–01–2001            State of Iowa                       Improve grantee oversight
                  QC–2002–037 11–01–2001            City of Elk River, MN               $56,178 questioned
                  QC–2002–039 11–01–2001            State of Wisconsin                  Improve grantee oversight
                  QC–2002–049 11–16–2001            Michigan Department                 Improve grantee oversight
                                                    of Transportation
                  QC–2002–050 11–06–2001            Department of Transportation—       Improve grantee oversight
                                                    Highway Division, State of Hawaii




                                                                                         C h a r t s & Ta b l e s   59
Office of Inspector General Published Reports                                                             continued
     10/1/01—3/31/02


 Operating
 Administration/         Report           Date                                  Focus of Report/
 Type of Report          Number        TRANSPORTATION
                                         Issued   Title                 SECURITY
                                                                               Recommendations

 FHWA—Grant Audits continued
                 QC–2002–051             11–06–2001     Government of the United      Improve grantee oversight
                                                        States Virgin Islands
                      QC–2002–052        11–06–2001     City of Austin, TX            Improve grantee oversight

 Federal Railroad Administration
 Other OIG Internal Reports—1 report
                      CR–2002–075        01–24–2002     2001 Assessment of            Amtrak will not meet
                                                        Amtrak's Financial            self-sufficiency deadline
                                                        Performance and
                                                        Requirements

 Federal Transit Administration
 Internal Audits: Program/Functional—2 reports
                        IN–2002–078      02–12–2002     Hiawatha Corridor Light       Completion date and cost
                                                        Rail Transit Project          estimate reasonable;
                                                                                      temporary cash flow
                                                                                      shortfalls possible
                      IN–2002–085        03–05–2002     Tren Urbano Rail Transit      Cost increases and schedule
                                                        Project                       delays likely

 Other OIG Internal Reports—1 report
                      IN–2002–074        01–23–2002     Status of Major Transit       Status information for
                                                        Capital Projects              major transit projects

 Grant Audits: Audits of Grantee Under Single Audit Act—32 reports
                       QC–2002–002        10–18–2001 Alameda Contra Costa             Improve grantee oversight
                                                        Transit District, CA
                       QC–2002–004        10–18–2001 Alameda Corridor                 Improve grantee oversight
                                                        Transportation Authority,
                                                        CA
                       QC–2002–005        10–22–2001 Los Angeles County               Improve grantee oversight
                                                        Metropolitan Transportation
                                                        Authority, CA
                       QC–2002–007        10–23–2001 Lafayette City-Parish            Improve grantee oversight
                                                        Consolidated
                                                        Government, LA
                       QC–2002–012        10–24–2001 Bi-State Development             Improve grantee oversight
                                                        Agency, St. Louis, MO
                       QC–2002–013        10–24–2001 City of Tulsa, OK                $936,524 questioned


60   Semiannual Report to Congress
Office of Inspector General Published Reports                                                     continued
  10/1/01—3/31/02


Operating
Administration/    Report        Date
                                TRANSPORTATION  SECURITY                                Focus of Report/
Type of Report     Number       TRANSPORTATION
                                Issued    Title SECURITY                               Recommendations

FTA—Grant Audits continued
             QC–2002–015        10–29–2001   North County Transit                    Improve grantee oversight
                                             District, Oceanside, CA
                  QC–2002–018   10–30–2001   City of Port Arthur, TX                 $49,593 questioned
                  QC–2002–019   10–30–2001   State of Maine                          $238,362 questioned
                  QC–2002–021   10–30–2001   Milford Transit District, CT            Improve grantee oversight
                  QC–2002–027   10–31–2001   Downtown Waycross                       Improve grantee oversight
                                             Development
                                             Authority, GA
                  QC–2002–028   10–31–2001   State of Connecticut                    Improve grantee oversight
                  QC–2002–034   11–01–2001   Greater Portland Transit                $16,020 questioned
                                             District, ME
                  QC–2002–038   11–01–2001   Mass Transportation                     $200,000 questioned
                                             Authority, Flint, MI
                  QC–2002–040   11–01–2001   State of Vermont                        Improve grantee oversight
                  QC–2002–041   11–02–2001   Metropolitan Transit                    Improve grantee oversight
                                             Authority of Black Hawk
                                             County, IA
                  QC–2002–042   11–02–2001   Washington Metropolitan                 Improve grantee oversight
                                             Area Transit Authority,
                                             Washington, DC
                  QC–2002–043   11–05–2001   City of Gadsden, AL                     $13,342 questioned
                  QC–2002–044   11–05–2001   Pee Dee Regional                        $1 questioned
                                             Transportation
                                             Authority, SC
                  QC–2002–045   11–05–2001   Luzerne County                          Improve grantee oversight
                                             Transportation Authority,
                                             Kingston, PA
                  QC–2002–046   11–05–2001   Sunline Transit Agency, CA              $200,000 questioned
                  QC–2002–047   11–05–2001   Suburban Mobility Authority for         Improve grantee oversight
                                             Regional Transportation, Detroit, MI
                  QC–2002–048   11–05–2001   Central Ohio Transit Authority,         Improve grantee oversight
                                             Columbus, OH
                  QC–2002–055   11–06–2001   Cumberland-Dauphin-Harrisburg           Improve grantee oversight
                                             Transit Authority, Harrisburg, PA
                  QC–2002–056   11–06–2001   Lifestream Behavioral Center,           $70,758 questioned
                                             Incorporated, Leesburg, FL




                                                                                    C h a r t s & Ta b l e s     61
Office of Inspector General Published Reports                                                            cc oo nn tt ii nn uu ee dd
     10/1/01—3/31/02


 Operating
 Administration/         Report           Date
                                       TRANSPORTATION   SECURITYFocus of Report/
 Type of Report          Number        TRANSPORTATION
                                         Issued   Title SECURITY
                                                               Recommendations

 FTA—Grant Audits continued
                   QC–2002–057           11–06–2001      County of Lackawanna         Improve grantee oversight
                                                         Transit System Authority,
                                                         PA
                       QC–2002–059       11–07–2001      City of Tucson, AZ           Improve grantee oversight
                       QC–2002–060       11–07–2001      Worcester Regional Transit   Improve grantee oversight
                                                         Authority, Worcester, MA
                       QC–2002–061       11–07–2001      Park City Municipal          $430,969 questioned
                                                         Corporation, UT
                       QC–2002–062       11–07–2001      Berks Area Reading           Improve grantee oversight
                                                         Transportation Authority,
                                                         Reading, PA
                       QC–2002–069       12–19–2001      San Diego Metropolitan       Improve grantee oversight
                                                         Transit Board, CA
                       QC–2002–087       03–29–2002      Palm Beach County, FL        Improve grantee oversight

 National Highway Traffic Safety Administration
 Internal Audits: Program/Functional—1 report
                        MH–2002–071 01–03–2002           Office of Defects            Challenges remain to fully
                                                         Investigation                implement the TREAD Act
                                                                                      and improve safety
                                                                                      defects detection

 Office of the Secretary of Transportation
 Internal Audits: Chief Financial Officer Financial Statement—1 report
                        FI–2002–083        02–27–2002 Consolidated Financial          Unqualified opinion on
                                                           Statements for Fiscal      FY 2001 financial statements;
                                                           Years 2001 and 2000        qualified opinion on
                                                                                      FY 2000 financial statements;
                                                                                      put $10,375,000 to better use

 Other OIG Internal Reports—1 report
                      CR–2002–073        01–10–2002      Department Oversight for     Preparations needed for
                                                         Transportation of            future radioactive
                                                         Nuclear Waste                waste shipments




62   Semiannual Report to Congress
Office of Inspector General Published Reports                                                                  cc oo nn tt ii nn uu ee dd
    10/1/01—3/31/02


 Operating
 Administration/          Report          Date
                                       TRANSPORTATION   SECURITYFocus of Report/
 Type of Report           Number       TRANSPORTATION
                                         Issued   Title SECURITY
                                                               Recommendations

 Saint Lawrence Seaway Development Corporation
 Internal Audits: Chief Financial Officer Financial Statement—1 report
                        QC–2002–077         02–08–2002 Quality Control Review of         Unqualified opinion on
                                                           Fiscal Year 2001 Audited      financial statements
                                                           Financial Statements




O f f i c e o f I n s p e c t o r G e n e r a l C o n g r e s s i o n a l Te s t i m o n i e s                 continued
    10/1/01—3/31/02


                    Testimony
  Control No.         Date                     Subject                             Congressional Body

 CC–2002–007        10–11–2001       Deployment and Use of               Committee on Transportation and
                                     Security Technology                 Infrastructure, Subcommittee on Aviation,
                                                                         U.S. House of Representatives

 CC–2002–029        11–01–2001       Amtrak’s Security, Safety, and      Committee on Commerce, Science, and
                                     Financial Issues                    Transportation, U.S. Senate

 CC–2002–038        11–14–2001       Status of Airline Security          Joint Hearing Before the Committee on
                                     After September 11, 2001            Governmental Affairs and the Subcommittee
                                                                         on Oversight of Government Management,
                                                                         Restructuring, and the District of Columbia,
                                                                         U.S. Senate

 CC–2002–088        01–23–2002       Challenges Facing TSA in            Committee on Transportation and
                                     Implementing the Aviation           Infrastructure, Subcommittee on Aviation,
                                     and Transportation Security Act     U.S. House of Representatives

 CC–2002–098        02–05–2002       Key Issues Concerning               Committee on Commerce, Science, and
                                     Implementation of the Aviation      Transportation, U.S. Senate
                                     and Transportation Security Act

 CC–2002–102        02–13–2002       Department of Transportation        Committee on Appropriations, Subcommittee
                                     Budget for Fiscal Year 2003         on Transportation, U.S. House of Representatives



                                                                                                 C h a r t s & Ta b l e s              63
O f f i c e o f I n s p e c t o r G e n e r a l C o n g r e s s i o n a l Te s t i m o n i e s            continued
       10/1/01—3/31/02


                     Testimony
     Control No.       Date                Subject
                                       TRANSPORTATION    Congressional Body
                                                      SECURITY
                                       TRANSPORTATION SECURITY
 CC–2002–103        02–13–2002        Reauthorization of the Pipeline       Committee on Transportation and
                                      Safety Program                        Infrastructure, Subcommittee on
                                                                            Highways and Transit, U.S. House
                                                                            of Representatives

 CC–2002–104        02–14–2002        U.S. Coast Guard Budget and           Committee on Appropriations,
                                      Management Issues                     Subcommittee on Transportation,
                                                                            U.S. Senate

 CC–2002–112        02–27–2002        Amtrak’s Performance, Budget,         Committee on Appropriations,
                                      and Passenger Rail Service Issues     Subcommittee on Transportation,
                                                                            U.S. House of Representatives

 CC–2002–110        02–28–2002        Progress and Challenges in            Committee on Energy and Commerce,
                                      Implementing the TREAD Act            Subcommittee on Commerce, Trade,
                                                                            and Consumer Protection, U.S. House
                                                                            of Representatives

 CC–2002–116        03–07–2002        Amtrak’s Performance, Budget,         Committee on Appropriations,
                                      and Passenger Rail Service Issues     Subcommittee on Transportation,
                                                                            U.S. Senate

 CC–2002–125        03–13–2002        FAA’s Fiscal Year 2003 Budget         Committee on Appropriations,
                                      Request                               Subcommittee on Transportation,
                                                                            U.S. House of Representatives

 CC–2002–122        03–14–2002        Amtrak’s Performance, Budget,         Committee on Commerce, Science, and
                                      and Passenger Rail Service Issues     Transportation, U.S. Senate

 CC–2002–131        03–19–2002        U.S. Coast Guard Budget and           Committee on Commerce, Science, and
                                      Management Issues                     Transportation, Subcommittee on Oceans,
                                                                            Atmosphere, and Fisheries, U.S. Senate




64      Semiannual Report to Congress
  Application of Audit Resources
  by Operating Administration
  October 1, 2001—March 31, 2002


                                                     NHTSA
                                                      2%
                   MARAD         FHWA
                    2%            14%
             FTA
              4%
                                                  FAA
                                                  43%


                           OST
                           19%



                   FMCSA
                     5%             USCG                  FRA
                                     7%                    4%

 Note: Resources shown for FAA include aviation security issues, which in the future
 will be recorded under the Transportation Security Administration.

 Resources shown for OST include time spent performing audits of the DOT consol-
 idated financial statement (which includes all Operating Administrations), Air
 Transportation Safety and System Stabilization Act-Air Carrier Compensation
 Payments, Loan Guarantees for Airline Industry, and Air Transportation and
 Essential Air Service.

 Time expended on the Research and Special Programs Administration, St.
 Lawrence Seaway Development Corporation, National Transportation Safety Board,
 and Surface Transportation Board was less than 1 percent.



                                 Required Statements

The Inspector General Act requires explanations of reasons for significant revisions to
management decisions made during the reporting period. OIG follows up on audits
reported in earlier Semiannual Reports. During this reporting period, there were no sig-
nificant revisions of departmental management decisions reported to OIG.

The Inspector General Act requires this report to describe any significant management
decisions with which the OIG disagrees. At the close of this reporting period, there were
no significant management decisions with which OIG disagreed.

The Inspector General Act requires a summary of reports made on instances where infor-
mation or assistance was unreasonably refused or not provided. At the close of the report-
ing period, there were no instances where information or assistance was unreasonably
refused or not provided.


                                                                       C h a r t s & Ta b l e s   65
P ro fi l e o f Pe n d i n g I nve s t i g a t i o n s
     10/1/01—3/31/02                     TRANSPORTATION SECURITY
                                                                                 Types of Cases
                                         TRANSPORTATION SECURITY
                                                  Contract/                 Aviation             Motor
                                    Number         Grant      Employee      Safety &             Carrier
 Operating Administration           of Cases       Fraud      Integrity     Security             Safety            HazMat                Other

 Federal Aviation Administration      202             25         38              106                   0                13                    20
 Federal Highway Administration        99             86          3                0                   0                 1                     9
 Federal Motor Carrier Safety          99              0          0                0                  73                16                    10
    Administration
 Federal Railroad Administration       10              3          0                0                   0                  6                   1
 Federal Transit Administration        14             14          0                0                   0                  0                   0
 Maritime Administration                6              5          1                0                   0                  0                   0
 National Highway Traffic Safety       11              0          3                0                   0                  0                   8
    Administration
 Office of the Secretary                6                 2       1                0                   0                 0                    3
 Research and Special Programs         30                 2       3                0                   0                25                    0
    Administration
 Transportation Security               43                 0       0               43                   0                  0                   0
    Administration
 U.S. Coast Guard                      52             11         16                5                   0                13                     7
 TOTAL                                572            148         65              154                  73                74                    58
 Percent of total                     100             26         11               27                  13                13                    10



 Investigative Resources by                                           Investigative Resources
 Priority Area                                                        by Operating Administration
 October 1, 2001—March 31, 2002                                       October 1, 2001—March 31, 2002
                                                                                                                                       USCG
                                                                                                                                        3%


                        All other                                                               TSA                    FAA
                          14%                                                                   25%                    35%

                                                                          NHTSA
                                                                           2%
                  HazMat
                    8%
                                          Aviation                        RSPA
            Motor carrier             safety & security                    3%
               safety                        52%                                        OST
                9%                                                                       8%                     FHWA
                                                                                                 FMCSA           12%
                      Contract &                                            MARAD                 10%
                      grant fraud                                            0.5%
                         17%                                                           FTA 1%                                 FRA 1%

                                                                      FAA wedge includes the resources devoted to aviation security (14.23 percent)
                                                                      before establishment of the Transportation Security Administration on November
                                                                      19, 2001.

                                                                      May not equal 100 percent due to rounding.




66    Semiannual Report to Congress
         The reporting period opened with a pending caseload of 533. Over the 6 months, 132
         cases were opened and 110   were closed, leaving a pending
                                  TRANSPORTATION                    caseload of 555. In addition,
                                                                 SECURITY
         294 cases were referred for prosecution, 287 were accepted for prosecution, and 17 were
         declined. As of March 31, 2002, 45 cases were pending before prosecutors.




Judicial and Administrative Actions
 10/1/01—3/31/02


                                               Indictments                                        265*
                                               Administrative actions
                                                 Employee suspensions                             1
                                                 Employee terminations                            2
                                                 Resignations/retirements                         2
                                               Convictions                                       90
                                               Years sentenced                                   38
                                               Years probation                                  124
                                               Years supervised release                          64
                                               Hours of community service                     1,250
                                               Fines                                    $ 513,970
                                               Restitutions/civil judgments             $ 3,295,757
                                               Federal recoveries                       $ 9,645,275
                                               State recoveries                         $       630
                                               TOTAL                                    $13,455,632 ✝


 * Includes indictments from airport security sweeps.
 ✝ Recoveries include fines, restitution, civil judgments or settlements, and Federal and state recoveries.
   Federal recoveries go to the U.S. Treasury; state recoveries are retained by the states.




                                                                                     C h a r t s & Ta b l e s   67
                                                          DOT OIG AWARDS


                                         Each year, the Inspector General holds a ceremony to
                                         recognize employees and teams who have excelled in
                                         their fields. Through their talent and dedication to the
                                         task at hand, OIG was able to provide valuable
                                         congressional testimony, uncover criminal activity,
                                         and provide many critical recommendations to improve
                                         program effectiveness affecting the safety of the
                                         public and the integrity of the Department
                                         of Transportation.

                                         The 2001 awards ceremony was held November 1,
                                         2001, at DOT Headquarters in Washington, DC.


                                         Secretarial Awards
     Award for Meritorious Achievement   Sarah E. Batipps
                                         For exceptional leadership and professionalism in
                                         auditing transit mega-projects nationwide.

                                         Scott K. Macey
                                         For outstanding leadership and significant
                                         contributions in evaluating airlines’ efforts to improve
                                         customer service.

                  Award for Excellence   Christina H. Lopez
                                         For consistent high-quality administrative support to
                                         the Office of Inspector General.

                                         Victoria D. Zirzow
                                         For outstanding administrative support to the Office
                                         of Inspector General.

           Award for Volunteer Service   Rodolfo E. Perez
                                         For outstanding community service to increase
                                         Hispanic Americans’ participation in transportation
                                         planning efforts.




68
       Secretary’s Team Award      Flight Delay Audit Team
                                   Mark R. Dayton, David A. Dobbs,
                                   Darren L. Murphy, Matthew E. Hampton,
                                   Fidel Cornell, Jr., Petra Swartzlander,
                                   Sandra M. DeLost, Randy D. Rohwer,
                                   Jeffrey Mortensen, Michael P. Dunn,
                                   Deborah A. Kloppenburg, Earl G. Kindley,
                                   Michele O. Paratte, Krystal L. Patrick,
                                   Susan M. Zimmerman
                                   For outstanding work in helping improve the
                                   Department’s tracking and reporting of flight delays,
                                   cancellations, and their causes.

                                   Amtrak Assessment Team
                                   Mark R. Dayton, Stuart A. Metzger,
                                   Leila D. Kahn, William H. Wuehler,
                                   Lauralyn J. Remo, Michael W. Rodgers
                                   In recognition of outstanding efforts over 4 years in
                                   monitoring Amtrak and reporting to Congress on
                                   Amtrak’s capital needs and progress in improving
                                   financial viability.


                                   OIG Awards
 Marguerite Christensen Award
for Excellence in Administration   Marisol Vasquez
                                   This award recognizes individual professionalism,
                                   technical excellence, and dedication in providing
                                   administrative support to the Office of Inspector
                                   General, U.S. Department of Transportation.

    Exceptional Civilian Service   Michael D. Gulledge
                                   In recognition of superior leadership and
                                   significant contributions to OIG’s work on highway
                                   mega-projects.




                                                                             Aw a r d s    69
                                          Rebecca C. Leng
                                          In recognition of continuous outstanding work on
                                          DOT’s Information Technology and Computer
                                          Security Programs.

                                          James L. Muhlenkamp
                                          In recognition of exemplary service in conducting
                                          priority investigations of great significance to the
                                          Office of Inspector General, the Department, and
                                          the Congress.

        Superior Achievement Awards       George E. Banks IV
                                          In recognition of outstanding performance on the
                                          audit of FAA property.

                                          David J. Johnson
                                          In recognition of dedication and outstanding
                                          investigative work in airport security matters in
                                          south Florida.

                                          Richard A. Kaplan
                                          In recognition of outstanding leadership and significant
                                          contributions, which included producing multiple
                                          reports and testimonies that improved aviation safety
                                          and FAA operations.

Administrative Professional of the Year   Jeannette M. Brown
                                          In recognition of outstanding support of the Region
                                          10 staff over the last year.

                                          Olivia B. Ewart
                                          In recognition of outstanding support of the
                                          investigative staff nationwide.

                                          Lisa G. Matlock
                                          In recognition of dedication and excellence in
                                          providing service to both audit and
                                          investigative employees.




70   Semiannual Report to Congress
                     Joyce K. Mayeda
                     In recognition of continued dedication and
                     outstanding administrative support to the Office of
                     Inspector General’s San Francisco office.

                     Sandra M. Roper
                     In recognition of dedication and outstanding
                     performance in supporting the criminal and civil
                     investigative programs of the Office of
                     Inspector General.

                     Florence H. Scheiner
                     In recognition of outstanding support of the
                     Regional Office administrative operations.

New Employee Award   Cecilia M. Barela
                     In recognition of outstanding work as a new
                     employee on complex financial issues.

                     Tina Candella
                     In recognition of superior achievements and
                     performance in conducting investigations and related
                     activities for the DOT OIG since March 2000.

                     Madeline M. Chulumovich
                     In recognition of exceptional leadership and high-
                     quality work on reviews of Coast Guard, the National
                     Highway Traffic Safety Administration, and
                     Department-wide programs.

                     Robert F. DeAntonio
                     In recognition of outstanding performance and
                     superior achievement on the review and testimony
                     for FAA’s Standard Terminal Automation
                     Replacement System.

                     Scott A. Florcsk
                     In recognition of outstanding work in redesigning
                     and deploying the OIG website.




                                                              Aw a r d s    71
                                       Robert A. Romich
                                       In recognition of outstanding performance in
                                       auditing air traffic pay issues in the Federal
                                       Aviation Administration.

                                       Cynthia F. Tims
                                       In recognition of outstanding computer security work.

                                       Vivian M. Vega
                                       In recognition of outstanding contributions to the
                                       OIG’s criminal investigations program.

         Manager of the Year Award     Keith L. Cosper
                                       In recognition of outstanding leadership on cost
                                       accounting and contract issues within the U.S.
                                       Department of Transportation.

                                       Robin K. Hunt
                                       In recognition of exceptional leadership in planning,
                                       directing, and managing high-visibility assessments of
                                       airline customer service and aviation security.

                                       Darren L. Murphy
                                       In recognition of outstanding leadership in helping
                                       improve the Department’s tracking and reporting of
                                       flight delays, cancellations, and their causes.

                                       Harry Schaefer
                                       In recognition of outstanding leadership of the
                                       investigative program of the U.S. Department of
                                       Transportation, Office of Inspector General.

        Supervisor of the Year Award   John W. Long
                                       In recognition of outstanding dedication to duty and
                                       superior supervisory and investigative skills.

                                       Anne V. Longtin
                                       In recognition of outstanding performance in
                                       developing, executing, and supervising the
                                       congressionally mandated review of airline
                                       customer service.



72   Semiannual Report to Congress
                       Michelle T. McVicker
                       In recognition of outstanding performance,
                       supervision, and leadership of the investigative staff in
                       Region 9.

                       Kevin B. Perkins
                       In recognition of outstanding performance in
                       managing the OIG’s audit of the $2.4 billion
                       Woodrow Wilson Bridge Reconstruction Project.

                       Daniel R. Raville
                       In recognition of exemplary contributions to the
                       Office of Inspector General in supervising audits
                       of Federal Aviation Administration programs
                       and operations.

Employee of the Year   NormaLyn Anderson
                       In recognition of outstanding investigative work and
                       demonstrated superior expertise. Your efforts this year
                       in the contract grant/fraud priority area resulted in an
                       $8.2 million recovery on a complex investigation.

                       Craig S. Furey
                       In recognition of superior service and performance in
                       conducting significant safety-related investigations
                       concerning fraudulent unapproved aircraft parts.

                       Thomas K. Lehrich
                       In recognition of sound legal advice and analysis which
                       contributed significantly to the advancement of the
                       mission of the Office of Inspector General.

                       LaKarla Lindsay
                       In recognition of major contributions in evaluating the
                       new DOT financial management system.




                                                                  Aw a r d s       73
                                     William M. Obinger
                                     In recognition of exemplary performance and
                                     dedication in identifying deficiencies in and remedies
                                     to motor carrier safety programs.

                                     Timothy N. Parker
                                     In recognition of outstanding contributions and
                                     dedication in the Contract/Grant Fraud Program.

                                     Rodolfo E. Perez
                                     In recognition of significant engineering contributions
                                     to several audits of transit and highway mega-projects.

                                     Randy D. Rohwer
                                     In recognition of outstanding audit work in the area of
                                     flight delays and new runway projects.

                                     Dr. Ping Zhong Sun
                                     In recognition of outstanding technical leadership on
                                     DOT Information Technology Programs.

                                     William H. Wuehler
                                     In recognition of outstanding efforts, dedication, and
                                     contributions to Amtrak reports and testimonies.

                                     Edwin J. Wynn
                                     In recognition of outstanding performance in
                                     conducting investigations for the U.S. DOT
                                     Inspector General.

                       Team Awards   Atlas Bulk, Inc., Investigation Team
                                     Michelle T. McVicker, Angel R. Jimenez, Donald
                                     Carr, Amy Hope
                                     For outstanding teamwork in the investigation of Atlas
                                     Bulk, Incorporated, which resulted in criminal
                                     convictions of four individuals for violations of the
                                     Hazardous Materials Transportation Act.




74   Semiannual Report to Congress
Automated Flight Data Processing System
Investigation Team
Craig S. Singleton, Rebecca C. Leng,
Jacquie M. Wente
For outstanding effort in the investigation and
prosecution of an FAA employee who intentionally
erased a critical flight program developed for FAA.

Cost-Accounting Audit Team
Keith L. Cosper, Terrence J. Letko, Paul F. Barry,
Monica J. Hayden, Michael J. Veverka
For outstanding performance to improve DOT’s cost-
accounting system and practices.

Delphi Audit Team
Earl C. Hedges, Leonard F. Meade,
Michael S. Ralph, Keyanna L. Frazier,
LaKarla M. Lindsay
For an outstanding evaluation of DOT’s new financial
management system.

Garcon Point Bridge Investigation Team
Jose F. Molina, Brett Simpson (U.S. Coast Guard)
For dedication and outstanding partnership and
teamwork in conducting the investigation of
environmental crimes committed during the
construction of Garcon Point Bridge in Pensacola Bay.

Hotline Database Team
Mary Ann Taylor, Gail L. Browne,
Steven T. Soggin, Curt Vaughan,
Keith A. Bonanno
For exceptional efforts in developing and
implementing the Contact Identification Database,
which has significantly enhanced OIG’s capabilities for
recording, processing, and tracking hotline complaints.




                                         Aw a r d s   75
                                     Maritime Corruption and Theft Investigation Team
                                     James T. Cennamo, Joseph M. Zschiesche
                                     For outstanding teamwork in conducting investigations
                                     of the maritime industry.

                                     Runway Incursion Team
                                     Richard A. Kaplan, Kevin Dorsey,
                                     Robert L. Drake, John T. Crowson
                                     For outstanding contributions in evaluating and
                                     improving FAA’s Runway Incursion Program.

                                     Search and Rescue Audit Team
                                     Edward M. Stulginsky, Richard T. Johnson,
                                     George C. Hardin, Paul M. Streit,
                                     David S. Engelen, Todd O. Kath
                                     For outstanding teamwork and dedication in
                                     conducting a very thorough audit of Coast Guard’s
                                     Search and Rescue Program.

                                     Wilson Bridge Evaluation Team
                                     Michael D. Gulledge, Rodolfo E. Perez,
                                     Kevin B. Perkins, Francis H. Ochs,
                                     Susan R. Carnohan, Kristen S. Massey,
                                     Jennifer M. Supernaw
                                     For exceptional work and perseverance in assisting the
                                     Office of the Secretary of Transportation in improving
                                     the cost estimate and funding plans for the $2.4 billion
                                     Woodrow Wilson Bridge Reconstruction Project.




76   Semiannual Report to Congress
                                                          ACRONYMS


     AIG    Assistant Inspector General
    CASS    Continuing Analyses and Surveillance System
     CDL    Commercial Driver’s License
     DBE    Disadvantaged Business Enterprise
    DCIS    Defense Criminal Investigative Service
     DOE    Department of Energy
     DOT    Department of Transportation
     EPA    Environmental Protection Agency
     FAA    Federal Aviation Administration
      FBI   Federal Bureau of Investigation
   FHWA     Federal Highway Administration
  FMCSA     Federal Motor Carrier Safety Administration
     FRA    Federal Railroad Administration
     FTA    Federal Transit Administration
     HTA    Highway and Transportation Authority
     HTF    Highway Trust Fund
       IG   Inspector General
      INS   Immigration and Naturalization Service
      IRS   Internal Revenue Service
  MARAD     Maritime Administration
     NDS    National Distress and Response System
  NHTSA     National Highway Traffic Safety Administration
   NYPD     New York Police Department
     OIG    Office of Inspector General
    RSPA    Research and Special Programs Administration
    SIDA    Security Identification Display Area
    TASC    Transportation Administrative Service Center
 TRACON     Terminal Radar Approach Control
TREAD Act   Transportation Recall Enhancement, Accountability,
            and Documentation Act of 2000
    TSA     Transportation Security Administration
   USCG     United States Coast Guard




                                                                 Aw a r d s   77
U.S. Department of Transportation

   Office of Inspector General
    400 Seventh Street, S.W.
    Washington, DC 20590

OIG website: http://www.oig.dot.gov
